<html>
<title> - HEARING ON THE NOMINATION OF ANDREW WHEELER TO BE ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 116-9]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-9

HEARING ON THE NOMINATION OF ANDREW WHEELER TO BE ADMINISTRATOR OF THE 
                    ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            JANUARY 16, 2019

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-314 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c2b3c230c2f393f382429203c622f232162">[email&#160;protected]</a>                       
        


                  COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 16, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5

                                WITNESS

Wheeler, Andrew, nominated to be Administrator, U.S. 
  Environmental Protection Agency................................     6
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Carper...........................................    14
        Senator Booker...........................................    83
        Senator Boozman..........................................    88
        Senator Braun............................................    89
        Senator Cardin...........................................    90
        Senator Duckworth........................................    93
        Senator Ernst............................................    95
        Senator Gillibrand.......................................    98
        Senator Markey...........................................   107
        Senator Merkley..........................................   115
        Senator Rounds...........................................   127
        Senator Sanders..........................................   128
    Response to an additional question from Senator Shelby.......   139
    Responses to additional questions from:
        Senator Van Hollen.......................................   140
        Senator Whitehouse.......................................   145
        Senator Wicker...........................................   162

                          ADDITIONAL MATERIAL

Letters to:
    Senators Barrasso and Carper from the Agricultural Retailers 
      Association et al., January 28, 2019.......................   974
    Senators Barrasso and Carper from the American Exploration & 
      Mining Association, January 25, 2019.......................   977
    Senators Barrasso and Carper from the National Association of 
      Realtors, January 15, 2019.................................   978
    Senators Barrasso and Carper from the National Cattlemen's 
      Beef Association and the Public Lands Council, January 25, 
      2019.......................................................   979
    Senators Barrasso and Carper, Senator Mitch McConnell, and 
      Senator Charles Schumer from the Portland Cement 
      Association, January 15, 2019..............................   980
The importance of the Chesapeake Bay's health cannot be 
  overstated, Letter to the Editor from Chante Coleman. The 
  Washington Post, January 13, 2019..............................   981

 
    HEARING ON THE NOMINATION OF ANDREW WHEELER TO BE ADMINISTRATOR 
                 OF THE ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                      WEDNESDAY, JANUARY 16, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (Chairman 
of the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Cramer, Braun, 
Rounds, Sullivan, Boozman, Wicker, Ernst, Carper, Cardin, 
Sanders, Whitehouse, Merkley, Booker, Markey, Duckworth, and 
Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning, and welcome.
    This is a formal Senate hearing. In order to allow the 
Committee to conduct its business, I am going to maintain 
decorum. That means if there is any disorder or demonstration 
by a member of the audience, the person causing the disruption 
will be escorted from the room by the Capitol Police.
    With that said, I call this hearing to order.
    Today, we are going to consider the nomination of Andrew 
Wheeler to be Administrator of the Environmental Protection 
Agency.
    Before I speak about Acting Administrator Wheeler's 
nomination, I want to take a moment to welcome the new members 
of our Committee, Senators Braun and Cramer. Welcome to the 
Committee. I know that your experience and expertise will 
strengthen our Committee and bring fresh perspectives to our 
debates. Welcome.
    I would also like to welcome back all of the old members of 
the Committee. I look forward to working with each of you as we 
conduct the Committee's business this Congress, which brings us 
to the business of today's hearing.
    President Trump has nominated Environmental Protection 
Agency Acting Administrator Andrew Wheeler to serve as the 
Administrator of the agency. Mr. Wheeler has served as Deputy 
Administrator of the EPA since April 2018 when the Senate 
confirmed his nomination with bipartisan support.
    Since July of last year Mr. Wheeler has served as the 
Acting Administrator of EPA. I believe Acting Administrator 
Wheeler has done an outstanding job of leading the EPA these 
past 6 months. Under Acting Administrator Wheeler's leadership, 
the agency has taken a number of significant actions to protect 
our Nation's environment while also supporting economic growth.
    Acting Administrator Wheeler has led efforts to issue 
common sense regulatory proposals like the Affordable Clean 
Energy Rule and the revised definition of Waters of the United 
States; implemented the Committee's 2016 bipartisan reform of 
the Toxic Substances Control Act in an effective and efficient 
manner; reduced lead exposure, including through the Federal 
Lead Action Plan; provided greater regulatory certainty to 
States, to tribes, to localities, and the regulated community; 
and has improved enforcement and compliance assistance.
    Acting Administrator Wheeler is very well qualified to run 
the Environmental Protection Agency. Before his leadership 
roles at the agency, Mr. Wheeler spent 25 years working in the 
environmental field as a career employee with the Environmental 
Protection Agency, as this Committee's Clean Air Subcommittee 
staff director, as then the full Committee staff director and 
chief counsel, and finally as a consultant for a large variety 
of energy and environmental clients.
    Mr. Wheeler has received broad and bipartisan support. 
Former Democratic vice presidential candidate and U.S. Senator 
Joe Lieberman, who served as a member of this Committee while 
Mr. Wheeler was staff director, stated when Wheeler was 
nominated for deputy director that ``Mr. Wheeler conducted 
himself in a fair and professional manner. I hope his 
nomination will receive similarly fair consideration by the 
Senate.'' Ranking Member Carper said of Mr. Wheeler at one 
point, ``I think having worked in the agency he actually cares 
about the environment, the air we breathe, the water we drink, 
and the planet on which we live.''
    The EPA Administrator plays a central role in developing 
and implementing programs and activities focused on fulfilling 
the EPA's mission of protecting human health and the 
environment.
    We know how well qualified Mr. Wheeler is and when 
confirmed what a wealth of experience and expertise he is going 
to bring to this critically important job. I am going to work 
with Committee members to move this important nomination 
forward.
    I would now like to turn to the Ranking Member for his 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    Mr. Wheeler, welcome. It is good to see you. Thanks for 
meeting with my staff and me yesterday and on past occasions as 
well.
    Just 1 week ago President Trump nominated you to be the 
Administrator of the Environmental Protection Agency, the 
agency you already lead as its Acting Administrator. If I am 
not mistaken, under the Federal Vacancies Act, you can continue 
to serve as both the EPA Acting Administrator and the 
President's nominee for 203 more days.
    With many EPA staff members furloughed today, on the 26th 
day of President Trump's Government shutdown, a number of 
Democratic members of this Committee are concerned that we are 
rushing to move forward with your confirmation process.
    I realize we do not all agree on this, but my view is that 
EPA is shut down largely because the President wants Congress 
to approve an additional $6.5 billion in funding for a 2,000 
mile wall along our southern border with Mexico that the 
Mexicans were supposed to pay for.
    Meanwhile, because of the continuing shutdown across our 
country, our environment and public health are increasingly in 
jeopardy. With much of EPA shut down, rules are not being 
written, drinking water and power plant inspections are not 
being performed, Superfund sites are not being cleaned up, the 
safety of new chemicals is not being assessed, public meetings 
are being canceled, and just as important, some 14,000 
furloughed EPA employees are unsure if they will be able to 
afford their mortgages, daycare providers, or grocery and 
electricity bills.
    Some of those furloughed employees appear to have been 
asked to help prepare for this very hearing. Despite that, this 
Committee is moving quickly to process your nomination.
    I do not believe giving the Acting Administrators a speedy 
promotion is more urgent and more important than protecting the 
public from contamination to our air and water and lands. Our 
priority should be reopening our Government, certainly 
reopening EPA and the other closed Federal agencies.
    The day after Mr. Wheeler was named EPA Acting 
Administrator last summer, I sent him a letter. In that letter 
I reminded Mr. Wheeler of the challenge and opportunity he was 
granted to chart a new course for the agency after the scandal 
plagued tenure of Scott Pruitt.
    Mr. Wheeler is certainly not the ethically bereft 
embarrassment that Scott Pruitt proved to be. To be fair, he 
has engaged more frequently and substantively than Scott Pruitt 
with both Congress and EPA career staff.
    I knew that Mr. Wheeler and I would not agree on every 
issue. We do not, but I had hoped he would moderate some of 
Scott Pruitt's most environmentally destructive policies, 
specifically where the industry and the environmental community 
are in agreement.
    Regrettably, my hopes have not been realized. In fact, upon 
examination, Mr. Wheeler's environmental policies appear to be 
almost as extreme as his predecessor's despite the promise Mr. 
Wheeler made when he first appeared before our Committee.
    For example, Mr. Wheeler said repeatedly that he agreed 
with a goal that many of us share, striking a deal between 
automakers and the State of California on fuel economy and 
greenhouse gas tailpipe standards.
    I have just come from the auto show in Detroit on Monday. 
The entire auto industry, many Members of Congress, and other 
stakeholders have repeatedly asked for a compromise that would 
provide certainty and predictability for the industry.
    However, instead of making a serious, vigorous effort to 
find a win-win outcome he envisioned, Mr. Wheeler signed off on 
a proposal that preempts California and freezes standards for 
the better part of a decade.
    I learned that the Trump administration now plans to 
finalize a 0.5 percent annual increase in the stringency of the 
standards, a rate that is 10 times weaker than the current 
rules. This will only lead to extensive litigation and 
uncertainty for our automakers. That is not a win-win outcome, 
really more a lose-lose.
    There is another example of Mr. Wheeler's forgotten 
promises. Mr. Wheeler recently signed a proposal to remove the 
legal underpinnings of the mercury and air toxics standards. 
EPA decided it was no longer ``appropriate and necessary'' to 
protect the brains of infants from mercury and air toxic 
pollution emitted by electric utilities.
    By using outdated data and deeming that some benefits like 
reductions in cancer, birth defects, and asthma attacks are no 
longer important to consider, EPA is setting a dangerous 
precedent in putting the MATS rule in legal jeopardy. EPA has 
gone so far as to request public comment on whether the 
standards should be eliminated.
    Mr. Wheeler says this action is necessary and that the 
proposal strikes a balance. I just do not think that is true. 
No court has ordered this action. No utilities are asking for 
this action. Their proposal is not needed to protect public 
health.
    In fact, the utility industry is in full compliance with 
the EPA standards, full compliance at one-third of the expected 
cost. Think about that--one-third of the expected cost. Every 
stakeholder from coal fired utilities to religious leaders to 
environmental organizations to chambers of commerce urged this 
Administration not to take this step.
    Surprisingly, Mr. Wheeler has chosen to ignore the course 
of stakeholders who all hoped that he, EPA, and this 
Administration would try a more responsible path.
    A final example of Mr. Wheeler's failure to lead lies in 
the agency's reported opposition to submitting to the Senate 
for ratification the Kigali Treaty to phase out harmful 
refrigerants. Safer substitutes are made in Texas and Louisiana 
with American technology by American companies whose 
investments and jobs are at risk when China dumps cheaper, 
polluting products onto the market.
    Ratification of this treaty is supported by a truly 
staggering list of stakeholders that range from the American 
Chemistry Council to the U.S. Chamber of Commerce to Freedom 
Works to the Sierra Club--almost everyone, it seems, except 
EPA.
    Mr. Wheeler, when you worked with us in the Senate, you 
were able to identify areas where compromise was possible. It 
remains my hope that you can reverse course and commit to seize 
upon the policy ``win-wins'' like these and others that protect 
our environment and public health while protecting and 
providing industry with certainty they need and deserve.
    That is what the American people expect and deserve from 
anyone who has been nominated to lead the Environmental 
Protection Agency. Based on what we have seen so far, without 
such commitments, that is not the nominee that we have before 
us today. I say that with no joy.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe, would you like to introduce Mr. Wheeler?

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. I would like to introduce Mr. Wheeler. I am 
honored that he invited me to do that. I am very excited about 
the prospects of taking his temporary job into a permanent job.
    It may come as a shock to some of you that I do not totally 
disagree with my good friend, Senator Carper. I really think 
that in the midst of the Schumer shutdown is a good time to 
confirm some of these very important nominees. There is not one 
more important or a position that is more important than we 
have right now.
    Back when President Trump nominated Andrew as Deputy 
Administrator, I said there was no one more qualified. Now that 
he has been Acting Administrator for the past 6 months, 
Andrew's ability to lead the agency has never been clearer.
    After earning a law degree at Washington University in St. 
Louis at the School of Law, Andrew joined the EPA as a special 
assistant in the agency's Pollution Prevention and Toxics 
Office in 1991.
    There have been a lot of years and a lot of experience. He 
was an EPA employee for 4 years, transitioning to the George 
H.W. Bush administration and then to the Clinton 
administration, earning three bronze medals for commendable 
service along the way. For those of you who do not know, the 
bronze medal is given for ``significant service or achievements 
in support of the agency's mission or for demonstration of 
outstanding accomplishments in supervision and leadership.''
    When Andrew left the agency he brought that sense of 
service and leadership with him to the U.S. Senate where I had 
a front row seat to his high quality of character and witnessed 
the dedication he brings to every job and issue.
    Andrew started in my personal office as chief counsel, 
transitioned to staff director for the U.S. Senate Subcommittee 
on Clean Air, Climate Change, Wetlands and Nuclear Safety. I 
was Chairman of that subcommittee at that time.
    In 2003, when I became Chairman of this Committee, Andrew 
became the chief counsel. Over the next 6 years, he would 
eventually become staff director, and we worked closely 
together on highway bills, energy bills, the Diesel Emissions 
Reduction Act, the Clear Skies Act, and many other pieces of 
legislation.
    Since leaving the U.S. Senate in 2009 Andy has continued to 
build on his reputation as a leader in energy and environmental 
policy and has brought this vast wealth of knowledge and 
expertise on environmental issues to the EPA.
    The Senate confirmed him as Deputy Administrator in April 
of last year on a bipartisan basis, and he became Acting 
Administrator in early July. I was lucky enough to attend his 
welcome speech to the employees of the agency and saw a man who 
respected the agency and the work the career staffers do.
    This is something that is unusual. I do not think Andrew 
knew I was there in the audience, but there were a couple or 
300 people from the EPA administration. All of them were there 
with the highest possible respect for Andrew Wheeler.
    He has worked on the issues for his entire 28 year career. 
I am honored that he chose to spend half of that time with me. 
I believe that the U.S. Senate benefited from his leadership. I 
know America will as well.
    I remember looking at the expressions on the faces of the 
individuals out there thinking there is room at the top for me, 
too. There were several hundred people in there who had a 
career such as Andrew had, starting at the bottom, and here is 
the top. He has done a great job. I am very excited to look 
forward to working with him in a new capacity that I have not 
experienced before.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Inhofe.
    Now I would like to welcome our nominee to the committee, 
Andrew Wheeler, nominated to be Administrator of the 
Environmental Protection Agency.
    I want to remind you that your full written testimony will 
be made a part of the record. We all look forward to hearing 
your testimony. I would invite you to introduce or reintroduce 
to the Committee your family then please proceed with your 
testimony.

  STATEMENT OF ANDREW WHEELER, NOMINATED TO BE ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Wheeler. Thank you, Senator.
    Joining me today is my nephew Luke Hooper, and he brought 
along his parents with him and my sister, Liesle, and her 
husband, Tim. I also have two friends that I met on my first 
day in law school back in 1987, Judy Kim and Dawn Sydney. Dawn 
was at my confirmation hearing for the Deputy Administrator 
position, and today she brought her mother with her, Betty 
Beveridge, who traveled from Florida to be here today. I want 
to thank them all for coming today.
    Senator Barrasso. Thank you, and welcome.
    Mr. Wheeler. Good morning, Mr. Chairman, Ranking Member 
Carper, and members of the Committee.
    Thank you, Senator Inhofe, for the introduction.
    I am honored and grateful that President Trump has 
nominated me for the position of Administrator of the 
Environmental Protection Agency. There is no more important 
responsibility than protecting human health and the 
environment. It is a responsibility I take very seriously.
    Since becoming the Acting Administrator I have focused our 
efforts on providing greater certainty to the American public: 
certainty in our EPA programs; certainty to the States, tribes, 
and local governments; and certainty on how we communicate 
risk.
    Personally, I have also worked to provide more certainty to 
Congress. Immediately after becoming the Acting Administrator, 
I reached out to the Chairs and Ranking Members of our 
authorizing and appropriating committees in both the House and 
the Senate. I have met in person or by phone with many of you 
on specific issues of concern, and I will always make myself 
available.
    The American public has a right to know the truth about the 
health risks they face in their daily lives and how we are 
responding. It is our responsibility to explain it to them 
clearly and consistently. This includes recognizing the 
progress we have made as a Nation and where more progress still 
needs to be made.
    From 1970 to 2017 U.S. criteria air pollution fell by 73 
percent while the economy grew over 260 percent. In addition, 
we are ranked No. 1 in the world for access to safe drinking 
water. In addition, in 2018 we finalized 13 major deregulatory 
actions, saving Americans roughly $1.8 billion in regulatory 
costs.
    Yet there are Americans who have not shared in this 
progress. It is these Americans that President Trump and his 
Administration are focused on, Americans without access to safe 
drinking water or Americans living on or near hazardous sites, 
often unaware of the health risks they and their families face. 
Many of these sites have languished for years, even decades.
    How can these Americans prosper if they cannot live, learn, 
or work in healthy environments? The answer is simple. They 
cannot. President Trump understands this, and that is why he is 
focused on putting Americans first.
    The Superfund program is a perfect example. In fiscal year 
2018 EPA deleted all or part of 22 sites from the National 
Priorities List, the largest number of deletions in 1 year 
since fiscal year 2005. We are in the process of cleaning up 
some of the Nation's largest, most complex sites and returning 
them to productive use.
    This past summer I visited the Anaconda and Butte sites in 
Montana, the first visit to both sites by the head of EPA in 
nearly 20 years. We are finalizing cleanup plans that will 
return these lands to productive use, an action which has 
literally been stymied for decades.
    This past September EPA issued a Record of Decision 
requiring removal of the worst contaminated sediment, including 
mercury and PCBs, at the Berry Creek site in New Jersey. At the 
U.S. Smelter and Lead Refinery site in East Chicago, we were 
able to issue a proposed $25 million cleanup plan that will 
address lead contaminated soil in Zone 1 of the site.
    We have also made safe drinking water a top priority as 
well.
    In May 2018 we convened the first ever National Leadership 
Summit to help States address the emerging risk associated with 
PFAS. We also hosted a series of visits in communities directly 
impacted by PFAS. Using information from these events and other 
public input, we will release a PFAS management plan in the 
very near future.
    We are also taking important actions to protect our 
children from the dangers of lead exposure. We proposed 
stronger dust, lead, and hazards standards and we are updating 
the lead and copper rule for the first time in over two 
decades. These actions and more are detailed in the new Federal 
Lead Action Plan announced in December.
    In addition, we are using our grants and financing programs 
to help communities replace lead surface lines and upgrade 
their water infrastructure. Under President Trump, EPA has 
issued seven WIFIA loans totaling over $1.5 billion. Combined, 
these projects will help finance over $3.5 billion in 
infrastructure investments while creating over 6,000 jobs. That 
is just the beginning.
    This past year we invited an additional 39 projects from 
across the Nation to apply for the WIFIA loans that would help 
finance $12 billion in infrastructure and create up to 183,000 
jobs.
    On the air side, we have launched common sense reforms such 
as the Cleaner Trucks Initiative. By working closely with 
States and the private sector, we will reduce NO<INF>x</INF> 
emissions from heavy duty trucks which are not required by 
statute or court order, but it makes sense to do.
    Finally, we proposed three major rulemakings on our new 
Waters of the U.S. definition, the Affordable Clean Energy 
Rule, and the Safe Vehicles Rule in conjunction with the 
Department of Transportation.
    Through our regulatory reforms, the Trump administration is 
proving that burdensome Federal regulations are not necessary 
to drive environmental progress. What makes our actions 
effective and durable is our commitment to vigorously enforce 
them.
    In fiscal year 2018 EPA enforcement actions required the 
treatment, disposal, or elimination of 809,000,000 pounds of 
pollutants and waste, almost twice as much compared to 2017. We 
also entered the largest settlement in the history of the 
enforcement of the Risk Management Program with responsible 
parties spending $150 million on major safety improvements.
    I am proud of our accomplishments, and I know that none of 
it would be possible without our talented and dedicated EPA 
career staff. Just last week EPA and the Department of Justice 
announced a $490 million settlement with Fiat Chrysler for 
cheating U.S. emission standards.
    For 3 years Fiat Chrysler told us their vehicles were 
compliant, yet it was EPA engineers in Ann Arbor who caught 
them cheating. Then they proved how they were cheating, and 
that was no easy task.
    Defeat devices are hidden in vehicle software which 
contains more than 100 million lines of code. To give you an 
idea of what the EPA staff had to deal with, an F-22 fighter 
jet has less than 2 million lines of code, and a Boeing 787 has 
around 14 million lines of code.
    I am proud and grateful for a talented career staff that 
was able to detect and expose these defeat devices. This is 
just one of many examples of the expertise our career staff 
brings to the agency and one of the many reasons that I miss 
our furloughed employees and look forward to getting them back 
to work as soon as possible.
    Thanks to the hardworking public servants, pollution is on 
the decline. Our focus now is to accelerate this decline, 
particularly in communities where it poses the most immediate 
and lasting harm.
    Thank you for your time. I look forward to answering your 
questions.
    [The prepared statement of Mr. Wheeler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much for your testimony.
    As mentioned, the hearing will include questions. There 
will be two 5 minute rounds of questions. I will start the 
second round after we close the first round. To be fair to all 
the members of the Committee and to the witness, I ask Senators 
to please limit your questions in each round to 5 minutes.
    Throughout the hearing and with the questions for the 
record, our Committee members will have an opportunity to learn 
more about your commitment to public service and to our great 
Nation.
    I would like to ask throughout the hearing that you would 
please respond to the questions today as well as those 
submitted for the record.
    There are a couple of questions I have to ask as I do of 
all nominees and I did with you previously. These are on behalf 
of the Committee.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee and other appropriate 
committees of the Congress and provide information subject to 
appropriate and necessary security protections with respect to 
your responsibilities?
    Mr. Wheeler. I do.
    Senator Barrasso. Do you agree to ensure that testimony, 
briefings, documents in electronic and other forms of 
communication of information are provided to this Committee and 
its staff and other appropriate committees in a timely manner?
    Mr. Wheeler. I do.
    Senator Barrasso. Do you know of any matters which you may 
or may not have disclosed that might place you in a conflict of 
interest if you are confirmed?
    Mr. Wheeler. I do not.
    Senator Barrasso. I will now begin my first round of 
questions. For the information of Senators, we will be having 
two rounds as I previously stated.
    Let me start with this. The EPA is one of the Federal 
agencies directly impacted by the partial Government shutdown. 
Could you explain what actions you have taken to ensure that 
the EPA continues to fulfill the mission of protecting human 
health and the environment during this period?
    Mr. Wheeler. Absolutely, Senator, thank you.
    First, again I want to say I really am looking forward to 
our furloughed employees coming back to work.
    We are still on the job in any emergency actions as well as 
any court ordered actions. For example, we still have personnel 
on the ground in California dealing with the wildfires, people 
in Puerto Rico dealing with the hurricane, as well as other 
emergency responses that have been ongoing.
    Since the shutdown we have responded to seven new emergency 
responses around the country. We continue to monitor our 
hotline and tips lines. We are also fulfilling all of our court 
ordered deadlines.
    A perfect example is, as the shutdown has continued we are 
taking a look at what deadlines are coming up. We have five or 
six regulations that have court ordered deadlines. One of them 
is on lead dust, some regulation which is due in June. I sat 
down with my senior staff last week and we charted out what the 
court ordered deadlines are, working backward on when we need 
to have people back on the job to take care of those. We 
recalled people this week to work on the lead dust regulation.
    Out of 14,000 employees, we started with around 700 that 
were exempt from the furlough. We are at around 800 now. That 
varies on a day to day basis.
    Senator Barrasso. The Clean Air Act requires the EPA grant 
relief to small refineries which suffered disproportionate 
economic hardship under the Renewable Fuel Standard, the RFS. 
The law explicitly states a small refinery may petition the EPA 
for hardship relief, and it says, ``at any time.''
    Do you agree that the EPA does not have the authority to 
limit when small refineries can apply for that hardship relief?
    Mr. Wheeler. That is correct. They can apply at any point.
    Senator Barrasso. The law further states, ``The EPA needs 
to act within 90 days upon receiving a petition from a small 
refinery.'' Do you agree the EPA does not have the authority to 
delay decisions on small refinery petitions beyond the 90 days?
    Mr. Wheeler. I agree that the petition first goes to the 
Department of Energy for technical review before it comes to 
the EPA.
    Senator Barrasso. According to the EPA's online dashboard, 
there are at least 11 petitions that have been pending for more 
than 90 days. Is that correct?
    Mr. Wheeler. I am not sure of the number.
    Senator Barrasso. I never cease to be amazed by the power 
of innovation from energy production to manufacturing. 
Innovation has grown and improved the environment 
significantly. One key question is how we can harness that 
innovation to reduce greenhouse gas emissions and turn these 
emissions into useful products.
    We have discussed that we can use carbon dioxide to get oil 
out of the ground, to construct building materials, and to make 
fuels. What role does the EPA play in supporting innovations 
that would reduce greenhouse gas emissions?
    Mr. Wheeler. We have a lot of opportunities. We do that 
through our air program as well as all of our programs. We are 
looking to do innovation and encourage new innovation. I think 
it is important on the regulatory side that we do not try to 
tip the scale one way or the other on, for example, energy 
sources. We want to encourage innovation in the marketplace and 
encourage new ideas to come forward.
    Senator Barrasso. Thank you. I am going to reserve the 
balance of my time.
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    Mr. Chairman, I ask unanimous consent to submit for the 
record several articles and a letter that describes the current 
state of affairs at EPA during this Government shutdown. While 
95 percent of EPA employees are not receiving paychecks, EPA 
also is not fully carrying out its fundamental core mission. 
That is to protect human health and the environment.
    This means that scientists may lose data collection 
opportunities related to the deadly California wildfires, there 
is no EPA supervision at too many of our Superfund sites, and 
many more critical functions will not proceed until the EPA is 
funded.
    That is my request.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. I want to talk a little bit about PFOA, 
PFOS, and the PFAS chemicals. The fact that we do not have a 
Federal drinking water standard for those chemicals, flying in 
the face of the TSCA legislation, the toxic substances 
legislation, that we passed a couple of years ago, a number of 
the States have basically taken matters into their own hands. 
States that have set their own standards include California, 
Connecticut, Maine, Massachusetts, Minnesota, New Hampshire, 
New Jersey, North Carolina, and Vermont.
    Mr. Wheeler, my question is your PFAS management plan was 
supposed to come out, I think, last fall but has been delayed. 
I am asking you to commit to the members of this Committee that 
EPA will set a drinking water standard for these chemicals 
within 2 years. Can you make that commitment today?
    Mr. Wheeler. First of all, our PFAS management plan, we 
were hoping to unveil next week. With the shutdown, it is going 
to be delayed slightly. It is in the middle of interagency 
review.
    We are looking at all of our statutes. I am not going to 
pre-judge anyone in particular because of the interagency 
review. All the other agencies have to sign off on the plan 
itself, but we are looking at all of our statutes, and our 
enforcement abilities.
    We have been enforcing on drinking water around the country 
at a number of sites and helping States.
    Senator Carper. I am asking you if you can commit to 2 
years. We are not talking 2 months or 2 weeks. I am asking you 
to make a commitment to us that EPA will set a drinking water 
standard for these chemicals within 2 years. Can you make that 
commitment today? If you cannot, just say I cannot make it.
    Mr. Wheeler. I cannot make that commitment pending 
interagency review at this point.
    Senator Carper. I just want to impart a sense of urgency on 
PFAS, and frankly, on the others. We only have 5 minutes, and I 
have 3 minutes left.
    Mr. Wheeler. You said 95 percent of EPA is not being paid. 
No one at EPA is getting paid today. I want to thank Congress 
for passing the legislation for back pay for everyone.
    Senator Carper. Clean cars--I mentioned I was at the 
Detroit auto show. I have been going for a long, long time. 
There are representatives from 10 auto companies. They all have 
one message for me, actually two or three.
    One message is they want certain predictability. They are 
building more energy efficient cars. Their future is electric 
powered vehicles; their future is hydrogen powered vehicles. 
They need charging stations to be deployed, built across the 
country. They need fueling stations to be built. They need a 
tax credit extended for electric vehicles.
    They do not want to end up in a lawsuit with California and 
12 or 13 other States for the next 4 or 5 years. They need 
certainty and predictability. They want some near term 
flexibility on the fuel efficiency standards and tailpipe 
emissions that were set in the last Administration. They want 
some flexibility in the near term and more rigor on the 
standards over the long term.
    Why are you, why is EPA, why is California and these other 
13 States, why are we unable to come to agreement on a deal 
that every auto company wants?
    Mr. Wheeler. Senator, we talked about this yesterday, and I 
have talked about this with you at least four or five times. I 
am not going to go through the entire back and forth we have 
had and the State of California.
    Nobody wants a 50 State deal more than I do. That would be 
a successful program if we had a 50 State deal. I have not 
given up hope on that yet. We are also looking at the calendar. 
We know that we need to finalize our proposal by March 30. We 
are running short of time.
    I have met with Mary Nichols from California three times in 
my office. We have had numerous conversations. My staff has 
worked with her staff for months now. We would love to have a 
50 State solution.
    Senator Carper. The greatest source of carbon emissions on 
our planet right now is mobile sources, our cars, trucks, and 
vans. There is deal that is ready to be made--ready to be made. 
I am trying to impart some sense of urgency.
    If I were you, I would have her in my office, I would be in 
California. I would be trying to make this deal. The idea that 
you are waiting for them, or they are waiting for us, your job 
is to basically be the leader for fighting this battle.
    I am told oceans are heating up by 40 percent faster on 
average than predicted by the global science community just 5 
years ago. The year we just finished was the hottest year ever. 
I would urge you to feel a sense of urgency on this stuff, OK?
    Let us talk about mercury. I will reserve the balance of my 
time to look at mercury.
    Thank you.
    Senator Barrasso. Thank you, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    There is a lot of media spin, and you heard it again just 
now over the recent report showing that CO<INF>2</INF> 
emissions in the United States increased last year. A lot of 
the adversaries are wanting to blame the Administration's so 
called rollback of the Clean Power Plan and the withdrawal from 
the Paris agreement, among other actions.
    I would like to enter in the record a Forbes article that 
says this is not surprising given the unprecedented economic 
growth that the United States has seen in the last year and 
states, ``CO<INF>2</INF> emissions in the United States are 
still down 11 percent since 2005.''
    Can you address this mischaracterization?
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Wheeler. Yes, Senator. You are correct. Our 
CO<INF>2</INF> emissions peaked in 2005 and have been on the 
decline since then. I was just briefed by my career staff 
yesterday morning on this. We believe we are going to continue 
to see it decline. The CO<INF>2</INF> emissions for last year, 
we had an exceptionally hot summer and cold winter, but we had, 
more importantly, an uptick in manufacturing and industrial 
output that brought up our CO<INF>2</INF> emissions slightly 
but overall, we do not expect that to continue. We think the 
downward trend is going to continue in the long run.
    Senator Inhofe. That economic growth has been phenomenal. I 
assume the ACE rule would continue the general downward trend 
in CO<INF>2</INF>?
    Mr. Wheeler. It will. After ACE is fully implemented, we 
expect CO<INF>2</INF> levels to decrease an additional 34 
percent by 2005 levels from the electric power sector.
    Senator Inhofe. Of all the regulations from the previous 
Administration, in my State of Oklahoma, the one the farmers of 
America--not just in my State of Oklahoma but throughout the 
country--found the WOTUS rule to be the one that was the 
scariest of all. It is one you have reworked, and I have heard 
nothing but praise about this.
    I would like you to share with us the successes you have 
had in that particular rule. That is the one rule that means 
the most to my Oklahoma farmers.
    Mr. Wheeler. Thank you, Senator.
    We put out our proposal in December. The overarching 
guiding principle that I gave the staff in crafting the WOTUS 
rule was that I believe any property owner should be able to 
stand on his or her property and be able to tell for themselves 
whether or not they have waters of the U.S. on their property 
without having to hire an outside consultant or an attorney.
    I say that knowing that I used to be an outside consultant 
putting some people out of business, but I think people should 
be able to tell for themselves whether or not they have a 
wetland on their property.
    I want to make the big distinction that usually is not 
discussed, particularly in the media, that we are working in 
partnership with the States. Even if a water is not a water of 
the United States, it does not mean it is not protected at the 
State level.
    A lot of the waters that surround the wetlands that would 
no longer be considered a Federal waterway under the new WOTUS 
proposal will still be protected under State laws, and it does 
not impact our recovery efforts with our national priority 
areas such as the Chesapeake Bay, the Great Lakes, the 
Everglades, the Gulf Coast, or Puget Sound. All those recovery 
efforts will continue, and this does not impact any of those.
    Senator Inhofe. I appreciate that. I will share with you 
that the other day I was in western Oklahoma, our panhandle, a 
very arid area, and their concern was if we had not done this, 
we would probably be considered a wetland.
    I do not have to tell you my position on RFS, but in light 
of the rumors about the possible actions the Administration is 
considering, I would like to take a moment to remind everyone 
that corn is not the only stakeholder in this program. You have 
the real world cost borne by not just refiners but also by 
consumers, by motorcyclists, both, operators of lawn equipment 
for the use of gas blended with ethanol.
    There is growing concern that the Administration is only 
listening to one side of the argument and that those arguments 
are not based on actual real world conditions. Will any reset 
rulemaking be based on market realities including the increased 
demand for zero that the market is seeing today?
    Mr. Wheeler. We will take all those issues into 
consideration as part of the reset. We intend to move forward 
with the reset as well as the E15. The President is committed 
to the E15. For the last 2 years, we have RVOs, which is 
setting the levels for the renewable fuels for the next year. 
We have gotten both of those out on time, the first time that 
has ever happened in the history of the program.
    We are committed to doing that again this year. They 
provide certainty to the marketplace. It is very important, not 
just for the farmers, but also for the oil industry as well.
    Senator Inhofe. It is very, very important and you are 
doing a great job.
    Thank you.
    Senator Barrasso. Thank you, Senator.
    Senator Cardin is next, but I think Senator Carper, you 
have a request.
    Senator Carper. I have a unanimous consent request to 
submit for the record the recently released national climate 
assessment by 13 Federal agencies under this Administration, 
including the EPA, that lay out the costs our country will pay 
if we do nothing on climate change and you keep rolling back 
rules.
    Senator Barrasso. Without objection.
    [Editor's Note: Due to size constraints the above 
referenced material may be found at https://
nca2018.globalchange.gov/downloads/]
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Wheeler, thank you for being here, and thank you for 
your willingness to serve the public.
    I really want to first underscore the point Senator Carper 
made regarding the shutdown. The shutdown is dangerous and is 
devastating to the individuals involved, their families, to 
paying their bills, but also to the missions these agencies 
have to carry out. You have a very large percentage of your 
work force that is furloughed today without pay.
    To me it is not possible under these circumstances for EPA 
to carry out their mission to protect our environment, clean 
air, and clean water. You and I had a chance to talk about this 
in my office, but as you reach certain required deadlines, you 
need to have the personnel in place. It is going to be 
challenging to have workers work without pay, but I want to 
underscore how tragic this shutdown is and support Senator 
Carper in that regard.
    You talked about partnership with the States. I think there 
has been no better example of that than the Chesapeake Bay 
Program. We also had a chance to talk about this.
    The Chesapeake Bay Program was developed by the States in 
partnership with the stakeholders, developers, local 
government, farmers, and private groups. It was based upon what 
every State can do based upon the science in collaboration in 
order to improve the quality of the Bay.
    The Washington Post over the weekend published that, ``The 
importance of the Chesapeake Bay health cannot be overstated.'' 
I agree with them completely.
    The Federal role is critically important because that is 
the umpire, the one that holds it together, using TMDLs to 
establish how we are making progress in every State doing what 
it says it can do and should do.
    My first question to you is will you support the Chesapeake 
Bay Program and work collaboratively with the other Federal 
agencies, State and local jurisdictions, and stakeholders in 
protecting the Chesapeake Bay Watershed, including the partners 
of the program in the office today in Annapolis?
    I want to point out that this Committee has reauthorized 
the Chesapeake Bay Program, recommended that, and the Congress 
has fully funded the Chesapeake Bay Office.
    Mr. Wheeler. Yes, Senator, I fully commit to that. As you 
may remember, I live in a Chesapeake Resource Protection Area 
in Virginia. I am personally very concerned about the 
Chesapeake Bay.
    In my second week as a Deputy Administrator, I attended a 
Chesapeake meeting in DC, and in the first month as Acting 
Administrator, I attended the large meeting in Baltimore with 
the Governors of all the Chesapeake States. I think we had one 
lieutenant Governor there. I am very much committed to the 
Chesapeake Bay and to the Chesapeake Bay Program.
    Senator Cardin. And for the Federal office to be located in 
Annapolis?
    Mr. Wheeler. Yes.
    Senator Cardin. Thank you. I appreciate that.
    I want to talk about some of the related issues with clean 
air that Senator Carper mentioned, the mercury standard. Let me 
start with that. By the way, I support Senator Carper in regard 
to the CAFE or auto emission standards. That is a huge issue 
with regard to clean air and concerning the Bay.
    You mentioned the reduction of carbon emissions, but 
remember that the auto industry is still one of the largest 
sources, so the CAFE standards are important.
    In regard to mercury, quite frankly, I do not understand 
EPA's position. It seems to me that the mercury standards have 
worked. In your recent announcements, will there be any 
reduction in enforcement of the current mercury toxic 
standards?
    Mr. Wheeler. We do not believe there will be. We believe 
that every piece of mercury controlled equipment that is 
installed on a power plant today will remain under our 
proposal. The important thing to remember on the mercury 
regulation is that it has already been fully implemented, but 
what we had was a Supreme Court case, the Michigan v. EPA case, 
which directed us to go back and take a look at the cost-
benefit analysis that the Obama administration conducted for 
the original MATS regulation. We did that.
    At the same time, we also conducted the Risk Technology 
Review. By conducting both of those at the same time, also 
under a D.C. Circuit Court decision, we believe that although 
we do not find it appropriate and necessary, that under the 
Risk and Technology Review, the technologies that have already 
been implemented on the coal fired power plants will remain in 
place.
    That is our preferred option under the proposal. We are 
taking comment. We issued this right before the shutdown began. 
I do not believe it has been published in the Federal Register 
yet because the Federal Register is closed. As soon as it does, 
we are accepting comment on that. We would like to have 
comment, but at the end of the day, I do not believe a single 
piece of mercury controlled technology will be removed from any 
power plant, under our preferred option.
    Senator Cardin. Last, under Section 4101 of the bipartisan 
WRDA bill, the EPA is to establish a Stormwater Infrastructure 
Funding Task Force composed of representatives of Federal, 
State, and local governments and non-profit entities to study 
ways to improve the availability of public and private sources 
for funding of the construction, rehab, operation, and 
maintaining our stormwater infrastructure which is critical to 
the Bay.
    Are you committed to setting up that task force?
    Mr. Wheeler. Yes. We have already started looking at how we 
can set that up. We believe it would have to be done under the 
FACA process, but we are committed to getting that done.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Before turning to Senator Capito, Senator 
Inhofe, you have something you want to submit for the record?
    Senator Inhofe. Yes, I do. Mr. Chairman, I would submit 
three things into the record. These are items into the record 
that highlight the flaw in the science and the assumptions that 
make up the Fourth National Climate Assessment released: one by 
the Cato Institute, one by the Competitive Enterprise 
Institute, and the last one an article by Nicolas Loris 
entitled, The Latest Climate Report Feeds into Alarmist 
Fearmongering.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Capito. Thank you, Mr. Chairman.
    Thank you, Mr. Wheeler, for your willingness to serve. I 
know you have been a great Acting Administrator at the EPA and 
would certainly fill that role in a permanent capacity.
    I would like to say to Senator Cardin that I echo his 
concerns being a State that is impacted by the Chesapeake 
Watershed. West Virginia obviously has impacts there. I am 
fully supportive of any work that is being done that benefits 
not just Maryland but the whole region as well and Virginia, as 
we discussed.
    I would also like to make a comment about the shutdown. I 
am speaking for myself. I think a Government that is shutdown, 
I have said, is a useless process. It is painful for your 
agency and others that are impacted and for the American 
people, but it is fully within the realm of both Republican and 
Democratic colleagues to come to a reasonable conclusion. I 
implore the other side to come to the table.
    I would like to ask you about some of the criticisms that 
have been launched against you and give you a chance to 
respond. Some of our colleagues have talked about the 
responsiveness of the EPA to congressional letters of inquiry. 
Could you flesh that out a little?
    Yesterday, there was a letter published that talked about 
your negligence in recusing yourself certain matters. I would 
like to give you a chance to address those issues.
    Mr. Wheeler. Thank you very much.
    Senator Capito. If you can do it briefly, that would be 
great.
    Mr. Wheeler. I believe we have been very responsive to the 
letters from Congress as well as FOIA. In particular, the 
Administrator's office received a 400 percent increase in FOIA 
request during this Administration. We have added a lot of 
additional employees to process things like that.
    On the recusal side, I have worked with the career ethics 
officials at the agency since day 1. I have recused myself from 
any work involving my prior law firm and all of my prior 
clients under both the ethics regulations as well as the Trump 
Ethics Pledge. I have not violated that, and I continue to 
consult with our career ethics officials on a regular basis.
    Senator Capito. Thank you.
    You and I have talked about PFAS and the concerns I have, 
not just for West Virginia but nationally. You mentioned the 
management plan will be coming out and that it has more than 
one agency weighing in on that.
    I could not tell from your answer whether you are going to 
be setting a standard in that management plan or not.
    Mr. Wheeler. We are going to be recommending and moving 
forward on a number of different areas under a number of 
different statutes. We are looking on the water side as well as 
the CERCLA Superfund side and the TSCA Program as well.
    When it comes out, this is going to be our management plan, 
a multimedia approach to dealing with PFAS and PFOA. I do not 
know the specifics of what is in the management plan because it 
is currently in interagency review.
    Senator Capito. OK.
    Mr. Wheeler. We were hoping to release it next week, but 
with the shutdown it is going to be slightly delayed.
    Senator Capito. Another question I have is on the water 
management issues. There have been a series of reports in 
Appalachia saying that leakage out of our municipal and our 
rural systems of water in West Virginia is that 55 percent is 
lost at a significant cost to taxpayers, ratepayers, and also 
to the environment.
    For areas short on water, which does not happen to be ours, 
but for areas short on water, this has to be a daunting 
challenge for water systems all around the country. I was 
wondering if this is something you could address at EPA. Are 
there specific programs there under the Drinking Water State 
Revolving Fund that we might have some possibility to help 
these systems get more efficient and be better stewards of the 
environment through the water systems?
    Mr. Wheeler. I think there is. I think you are correct and 
under the State Revolving Loan Fund, I think we can be helpful. 
I would certainly be more than happy to work with you and your 
staff in trying to address those issues in West Virginia.
    Senator Capito. It is obviously a country-wide issue. I 
think a lot of it has to do with the age of the systems, when 
the systems were built, and how they have not been 
reconstituted.
    Also, on the Clean Power Plan replacement, we heard there 
was an emissions rise in 2018 that was attributed, you said, to 
a cold winter and hot summer, and also to more economic 
activity.
    Mr. Wheeler. Yes.
    Senator Capito. You said you expect that to go down over 
time. What gives you the confidence, if this economy rolls the 
way we think it is going to, that will actually result?
    Mr. Wheeler. We are beginning to see new investments and 
more energy efficiency not only in the electric power sector 
but also in automobiles where we still have the CAFE standards 
in place to reduced emissions going forward.
    Once ACE is fully implemented, we will see 34 percent 
reductions in CO<INF>2</INF> by the 2005 levels. We see across 
the board for all the industries we are working with also 
reductions in methane emissions as well, and we believe the 
CO<INF>2</INF>, greenhouse gas emissions will continue to go 
down.
    Senator Capito. Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Sanders.
    Senator Sanders. Thank you for being with us, Mr. Wheeler.
    President Trump has indicated his belief that climate 
change is a hoax perhaps perpetrated by the Chinese. Do you 
agree?
    Mr. Wheeler. I believe that climate change is real. I 
believe man has an impact on it.
    Senator Sanders. The President has said that climate change 
is a hoax. Do you agree with him?
    Mr. Wheeler. I have not used the hoax word myself.
    Senator Sanders. Leading scientists around the world, 
looking at many, many hundreds of reports, have indicated that 
we have 12 years in order to stop the worst impacts of climate 
change. What they are talking about are rising sea levels, more 
drought, more extreme weather disturbances, more wildfires, 
more migrations of people.
    Do you agree with the scientific community that climate 
change is a global crisis that must be addressed in an 
aggressive way?
    Mr. Wheeler. I believe that climate change is a global 
issue that must be addressed globally. No one country can----
    Senator Sanders. That was not my question. I do not have a 
lot of time, and I would appreciate your answering the 
questions.
    The scientific community has said climate change is one of 
the great crises facing our planet, and if there is not 
unprecedented action to transform our energy system away from 
fossil fuel to sustainable energy and energy efficiency, there 
will be irreparable damage in the United States and virtually 
every country on Earth. Do you agree with the scientific 
community?
    Mr. Wheeler. I would not call it the greatest crisis, no, 
sir. I consider it a huge issue that has to be addressed 
globally.
    Senator Sanders. I found it interesting, Mr. Wheeler, that 
you, as the nominee to be the head of the Environmental 
Protection Agency, in your opening statement, you did not 
mention the words ``climate change.'' How does it happen that 
the nominee to be the head of the Environmental Protection 
Agency does not mention the words ``climate change'' at a time 
when the scientific community thinks climate change is the 
great environmental crisis facing this planet?
    Should the American people have confidence that you are 
going to help us deal with this global crisis?
    Mr. Wheeler. Yes, they should have confidence because we 
are moving forward to reduce CO<INF>2</INF>. Our ACE proposal 
will reduce CO<INF>2</INF> approximately the same levels that 
the Clean Power Plan would have, if it had been implemented.
    We are reducing CO<INF>2</INF> from our CAFE standards and 
also addressing greenhouse gases through our methane program as 
well.
    Senator Sanders. You are addressing?
    Mr. Wheeler. Yes.
    Senator Sanders. The scientific community tells us that we 
have a crisis and that we need unprecedented action to 
dramatically reduce carbon emissions, not only in this country 
but around the world.
    We are the strongest economy in the world. If the 
leadership of the Environmental Protection Agency in the United 
States says to China, Russia, India, and countries all over the 
world, we have to move aggressively to protect this planet for 
our children and our grandchildren, we can have some impact on 
the entire international community. Are you prepared to do 
that?
    Mr. Wheeler. We are implementing the laws that Congress has 
passed.
    Senator Sanders. But you are the leader.
    Mr. Wheeler. We will implement those.
    Senator Sanders. That is not what I am talking about. We 
have people over here who do not believe that climate change is 
even real, but you are the nominee for the leadership of the 
Environmental Protection Agency.
    Will you provide the leadership in this country and the 
world to say we are concerned about the future of this planet 
for our kids and our grandchildren?
    Mr. Wheeler. We are concerned about the future of this 
planet for our children and grandchildren and we are 
implementing the laws passed by Congress including the Clean 
Air Act. That is why we are moving forward with the ACE 
proposal to reduce CO<INF>2</INF> from the electric power 
generating sector. We are moving forward with the safe CAFE 
proposal to reduce CO<INF>2</INF> levels.
    Senator Sanders. Is rising sea levels a concern or is that 
a hoax?
    Mr. Wheeler. Rising sea levels is a concern, and we believe 
in adaptation. We are looking at a number of things.
    Senator Sanders. I am sorry, adaptation?
    Mr. Wheeler. Adaptation to help our rising sea levels, 
absent additional congressional authority.
    Senator Sanders. Here is the point. We have people here who 
do not believe in climate change, but you are going to be the 
leader perhaps of the Environmental Protection Agency. We need 
your assistance now. Are rising sea levels real? What are we 
going to do to minimize that? Are the wildfires we have seen in 
California and elsewhere related to climate change, in your 
judgment?
    Mr. Wheeler. There is probably some relation to climate 
change. I think the biggest issue with the wildfires has been 
forest management.
    Senator Sanders. That is the biggest issue, not the 
droughts that we are seeing?
    Mr. Wheeler. That is the biggest issue.
    Senator Sanders. Not the droughts?
    Mr. Wheeler. In my opinion, yes.
    Senator Sanders. Thank you.
    Senator Barrasso. Thank you, Senator Sanders.
    We have already heard from Administrator Wheeler that he 
supports innovation as a means to reduce emissions. I recently 
wrote a New York Times op-ed entitled Cut Carbon Through 
Innovation, Not Regulation. I look forward to working with 
Acting Administrator Wheeler to support innovation in ways that 
respect the law and do not unfairly punish businesses.
    I ask unanimous consent to enter into the record the New 
York Times editorial of December 18, 2018, Cut Carbon Through 
Innovation, Not Regulation.
    Senator Whitehouse. Without objection, as long as my 
response to it can also be put in the record.
    Senator Barrasso. It was a very nice letter to the editor.
    Senator Whitehouse. Thank you.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sanders. By the way, Mr. Chairman, may I place an 
article in the record in response as well?
    Senator Barrasso. Yes, without objection.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Wheeler, I am going to give you an opportunity to share 
a bit in terms of the approaches we need on an international 
basis, but before we get into that, I would like some specific 
thoughts with regard to an item you do have control over, and 
that is the nationwide plan to develop E15 markets.
    Mr. Wheeler, last week, an EPA spokesman commented on the 
EPA's proposal to permit the sale of year-round E15, which are 
15 percent ethanol and 85 percent regular petroleum products.
    The quote that was given to us is this: ``This is a 
priority for both President Trump and Acting Administrator 
Wheeler. The ongoing partial shutdown will not impede the EPA's 
ability to keep our deadline.''
    I think one of the concerns a lot of producers in the upper 
Midwest have with regard to ethanol is in order to get into the 
summer driving season, we really need to have the guidelines 
and rules laid out as quickly as possible.
    Do you believe you will be able to commit to finalizing 
EPA's rule permitting year-round sale of E15 before the summer 
driving season starts?
    Mr. Wheeler. As of today, yes, but I do caveat that with we 
are unable to work on it right now during the Government 
shutdown.
    Senator Rounds. Where are you in the process, and when do 
you expect the proposed rule to be released? What is your best 
guess? I understand you have a Government shutdown, and you 
have to work around it as well.
    Mr. Wheeler. I believe we were originally planning on 
issuing the proposal in February. I kept the EPA open an 
additional week longer than the rest of the Federal Government, 
so we have not been shut down as long as some of the other 
Federal agencies and departments.
    It is not a day for day exchange as far as how much longer 
it will take us on the proposal, but we may be slightly delayed 
at this point, but we will get it done before the summer 
driving season provided we are back.
    Senator Rounds. In a reasonable length of time?
    Mr. Wheeler. Reasonable time.
    Senator Rounds. Within the law, small petroleum refineries 
are offered the opportunity to request a rollback on their 
requirement to actually incorporate ethanol into their 
products. Right now that amounts to about a 2.25 billion gallon 
per year reduction in the total amount of ethanol that has been 
incorporated into the fuel supplies.
    I do not think the original intent of Congress was that 
reduces the total amount of ethanol that is actually being 
marketed. Can you share with us your thoughts about the options 
we have when we recognize the law allows those refineries to 
take a reduction or apply for a reduction?
    What guidelines, alternatives, or authority do you have to 
try to still meet the original goals for ethanol production 
while at the same time honoring the guidelines in the law that 
allows those smaller refineries a hardship exemption? Can that 
exemption be reduced if you feel you cannot meet the guidelines 
Congress established with regard to the RVOs?
    Mr. Wheeler. As you know, Senator, we have had three court 
cases on the small refinery program instigated during the Obama 
administration when they were not granting any small refinery 
exemptions. EPA has lost all three in the courts.
    We are moving forward to implement the small refinery 
exemptions as included in the RFS program as part of the Energy 
Policy Act of 2005, Clean Air Act, but it has also been 
encouraged through the appropriations process. We have 
appropriations language telling us to implement the small 
refinery exemption program as well.
    You are correct. There are two competing issues there. If 
you grant a small refinery, it takes barrels away from the 
overall RFS goal of 15 billion gallons. There is not a lot of 
leeway there for us. It depends somewhat on the timing of the 
applications.
    If we were to reduce the 15 billion gallons by the amount 
we grant, you would end up having a rolling impact on having 
more refineries being subjected to higher levels of the ethanol 
mandate and end up having even more refineries being eligible 
for the exemption.
    We have tried to provide more transparency. We started the 
dashboard this past fall so that everyone understands what we 
are doing with the small refinery exemption. We are also taking 
a hard look at the overall numbers through our reset program. 
We intend to move forward with both the reset, the E15 and our 
RVOs. We are hoping to propose all three of those in February.
    Senator Rounds. Very good. Thank you.
    My time has expired. Thank you, Mr. Chairman.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you very much.
    Welcome, Mr. Wheeler. I wanted to let you know that I 
appreciate the polite and professional demeanor that you have 
brought to your task. Substantively, I continue to believe that 
you have your thumb, wrist, forearm, and elbow on the scales in 
virtually every determination that you can in favor of the 
fossil fuel industry. I think that is very unfortunate.
    I do think there is a baseline that we should work off of 
straight answers that are truthful and complete. I would note 
with respect to your recent answers to Senator Sanders about 
the CAFE standards, the Federal Register analysis, your 
analysis, of the CAFE standard proposal you have increases 
CO<INF>2</INF> emissions year after year after year after year 
up to 9 percent increased CO<INF>2</INF> emissions by 2035 
relative to the existing baseline.
    I do not think it is fair to say you are taking action to 
help the carbon emissions problem when your proposal is worse 
than the baseline you began with of the Obama CAFE standards. I 
would put the page into the record, page 43327.
    Similarly, you referred to your ACE Program replacing the 
Clean Power Plan as being something that would reduce carbon 
emissions. Again, your own analysis in the Federal Register, 
the Government's own analysis in the Federal Register shows 
that compared to the Clean Power Plan, your proposal will raise 
carbon emissions--CO<INF>2</INF> emissions--by tens of millions 
of tons every single year, including, for example, in 2030 
raising it by 60 million tons in that year.
    I would like to put those two pages into the record.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Whitehouse. When you were last here on November 8, 
2017, for your confirmation hearing as Deputy, I asked what you 
knew about your client, Bob Murray's so called action plan, 
that he was running around bragging was being implemented by 
Scott Pruitt and the Trump administration.
    Here is what you told me: ``I did not work on the plan, and 
I do not have a copy of it. I saw it briefly at the beginning 
of the year, but I do not have a copy of it. I looked at it and 
handed it back to Bob Murray.'' I think the reasonable 
conclusion from that testimony is that you really only had a 
hand on it briefly and only saw it very briefly.
    Scroll forward to December 6, 2017, when we learned by 
published reports on March 29, 2017, you attended a meeting 
between your client, Bob Murray, and Energy Secretary Rick 
Perry, where this action plan was discussed.
    There you are, and there is Murray. If we go on to the next 
photograph, you can see this action plan was right there in the 
room. It was a nice cozy meeting. Let's show the bear hug 
photo. That is really a sweet regulatory relationship.
    Mr. Wheeler. For the record, that is not me, though.
    Senator Whitehouse. No, no, that is your client, Mr. 
Murray.
    We later obtained a copy of the Murray action plan which 
was in that room with Secretary Perry. It turns out it was also 
provided to Vice President Pence and provided to former EPA 
Administrator Pruitt.
    You arranged for Murray to meet with Perry. You tried to 
schedule a meeting with Pruitt, but he fell ill, and the 
meeting did not take place. Murray was scheduled to meet with 
Pruitt that same day.
    Can you tell me now how many meetings with Trump 
administration officials for Bob Murray did you arrange, 
attempt to arrange, or attend, and with whom?
    Mr. Wheeler. Yes, sir. First of all, I did not try to 
arrange the meeting with Scott Pruitt. Somebody else in my firm 
did that. The meeting with Secretary Perry, the purpose of that 
meeting was to talk about the relief, and I forget what it was 
called at the time.
    Senator Whitehouse. My question was quite specific, which 
was how many meetings with Trump administration officials did 
you arrange or attend for Mr. Murray?
    Mr. Wheeler. The meeting with Secretary Perry, and then I 
believe we had an additional meeting at the White House for the 
energy advisor there. I did not attempt to arrange or attend 
any meetings where Mr. Murray attended.
    Senator Whitehouse. I am sorry, Mr. Wheeler. My time has 
expired. I do not want to play gotcha with you. What I do want 
is truthful, complete factual answers about this. I am going to 
expand on these questions in questions for the record. I expect 
you to provide complete and truthful answers as if under oath 
here at the hearing. Is that understood between us?
    Mr. Wheeler. Absolutely.
    Senator Whitehouse. Thank you.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Before heading to Senator Boozman, Senator Inhofe.
    Senator Inhofe. Thank you.
    There is an editorial in the Investor's Business Daily that 
looks at the Government charts that map out trends in 
hurricanes, tornadoes, droughts, wildfires, and all that. There 
is no upward trend in extreme weather, but instead it shows 
there is no trend in any of them.
    I would ask this be made a part of the record at this 
point.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Thank you for being here and your willingness to serve.
    First of all, I want to thank you and your staff for your 
timely response. We have an issue going on in Bella Vista, 
Arkansas, with a fire that has to do with a stump disposal. 
Your staff has been very, very good. This is the State's 
problem, but you do have the expertise on staff to help them.
    Senator Inhofe. Senator Boozman, could I interrupt for just 
a moment? I dropped the ball here. You had agreed to help out 
Senator Ernst by allowing her to go first. Would you still like 
to do that?
    Senator Boozman. Go ahead.
    Senator Ernst. I still have some time.
    Senator Boozman. OK. Are you sure?
    Senator Ernst. Yes.
    Senator Boozman. Like I said, thank you for doing that. I 
think it is a great example of the agency working with States 
in situations like that. We need more of that. Thank you very 
much.
    Mr. Wheeler. Thank you, Senator.
    Senator Boozman. Over the years, you were an integral part 
of helping this Committee pass many important pieces of 
legislation. You understand the work that goes into getting 
comprehensive bipartisan legislation passed, which this 
Committee can be very proud of. We have passed a bunch of that.
    How do you feel your role as a staff member on the EPW 
Committee has prepared you to bring people from all walks of 
life to the table to develop and implement important EPA 
regulations?
    Mr. Wheeler. Thank you, Senator.
    I think it has helped me a lot. I worked on several highway 
bills. I was the staff director for the 2005 highway bill that 
we did as well as several WRDA bills. I brought together people 
on both sides.
    Oftentimes on the highway side, it was people from not 
necessarily different parties, but different sized States in 
different parts of the country and learning about the issues 
that impact different States, small States, large States, 
populated States, and sparsely populated States. I am thinking 
of Alaska and Wyoming in particular.
    It really does educate someone on how to address large 
scale problems that face the entire country. That has helped me 
in my time so far at EPA.
    Senator Boozman. Very good.
    During the previous Administration, there was concern that 
rules were developed not based on sound science but on 
political ideology. Under your leadership, can we expect the 
EPA to be more transparent regarding how rules are developed?
    Further, as Administrator of the EPA, can we count on you 
to base all of your decisions on the rule of law and not on the 
Administration's or even your own political ideology?
    Mr. Wheeler. Absolutely. We are following not just the 
statutes but also the Supreme Court cases as well. I know there 
are cases where people on the left are not happy that we are 
moving forward with the solutions, and people on the right are 
not happy we are moving forward with the solutions. It is my 
job as Administrator to follow the law and follow Supreme Court 
cases.
    Senator Boozman. Very good.
    In your time at EPA and at the EPW Committee, you worked 
hard to improve environmental outcomes while providing 
regulatory certainty for the country. Can you please explain 
the environmental and economic benefits regulatory certainty 
provides? That is what we hear so much that you can play with 
good or bad rules, but if you do not know what the rules are, 
it is very, very difficult.
    Mr. Wheeler. Absolutely. I think our proposal for WOTUS 
regulation is a perfect example of that. As I mentioned 
earlier, I think it is really important for a property owner to 
be able to stand on his or her own property and be able to tell 
whether or not they have Federal water on their property.
    By clearly defining what is and is not, in defining what is 
not a water of the U.S. is just as important as defining what 
is and would give that certainty to the American public and 
allow people to use their property and land, prosper, and help 
the entire country. I think that is key and important.
    Senator Boozman. Criticism of EPA during the previous 
Administration was the agency's disconnect with rural America. 
Many hardworking Americans in rural States felt they did not 
have a voice and their opinions did not matter.
    What have you done and what do you plan to do in the future 
to facilitate a stronger level of trust between EPA and rural 
America? You just mentioned Waters of the U.S.
    Mr. Wheeler. I try to get out of DC out of the office as 
much as I can, and travel around the country. I have met with 
farmers leading up to our WOTUS proposal. I met with farmers 
all over the country.
    I was out in California meeting with farmers, in Kentucky, 
Montana, and Tennessee. It is real important for me to hear 
from people as to what their issues are and what their concerns 
are about. The farmers and the agriculture community are good 
stewards of the land. We need to make sure we are working in 
conjunction with them to protect the land.
    Senator Boozman. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Carper. Mr. Chairman.
    Senator Barrasso. Senator Carper.
    Senator Carper. Mr. Chairman, I ask unanimous consent to 
submit for the record an article and letter regarding EPA's 
dismissal of the Particulate Matter Review Panel and the 
agency's insistence on moving forward with its secret science 
proposal limiting scientist input for advisory panels while 
also attempting to ignore scientific studies where the 
underlying data has not been made public will greatly hinder 
EPA's ability to use the best available science to protect 
human health and the environment.
    Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Merkley.
    Senator Merkley. Thank you, Mr. Wheeler.
    Yesterday when we talked, I laid out all the things that 
are affecting Oregon through climate chaos, affecting our 
forests, our farming, and our fishing. I asked you how 
concerned are you about these impacts on my constituents, the 
people of the United States, and you shifted to saying, ``My 
job is to follow rules and work to obey lawsuits.''
    I came back to you again, and I said again, these are 
tremendous impacts that we are seeing, hugely damaging. How 
concerned are you? You shifted to saying you are looking 
forward to going to Africa to talk about clean drinking water 
for Africans.
    I am going to give you a third chance to answer this 
question. The calamities we are seeing are enormous in my State 
and across this country, more powerful hurricanes, more 
devastating forest fires, more acidic waters affecting our 
shellfish industry, loss of water for irrigation from snow 
packs, and pine beetles that are eating up our forests.
    On a scale of 1 to 10 with 10 being you stay awake nights 
worrying about it and 1 being it occasionally crosses your 
mind, how concerned are you about this devastating impact on 
our Nation and the world?
    Mr. Wheeler. I would say I stay awake at night worrying 
about a lot of things.
    Senator Merkley. One to 10, please answer my question and 
not answer some other questions. On a 1 to 10 scale, how 
concerned are you?
    Mr. Wheeler. Eight or nine.
    Senator Merkley. Really? Then let us turn to the issue of 
ACE, the Affordable Clean Energy Plan. You told me this gets 
just as much carbon reduction as does the Clean Power Plan. 
However, your own agency says it will result in 3.5 percent 
higher CO<INF>2</INF> production by 2030 than the Clean Power 
Plan.
    Why did you come to my office and tell me it is the same 
when your agency experts say it will produce a lot more carbon 
dioxide?
    Mr. Wheeler. My agency experts have told me that we are 
going to get a 34 percent reduction in CO<INF>2</INF>2 based on 
2005 levels once the ACE regulation is fully implemented.
    Senator Merkley. Yes, but what you quoted to me was a 
comparison to the Clean Power Plan so when you shift 
statistics, that is not transparency, and that is not 
integrity.
    A study from Boston University, Harvard University, and 
Syracuse University found that because ACE has no meaningful 
reductions in CO<INF>2</INF>, because it allows plants to 
bypass pollution controls, that in 20 States you have a 
significant increase in sulfur dioxide and nitrogen dioxide and 
you have, in 6 States, an increase in CO<INF>2</INF> as 
compared to no regulation at all.
    How is does a plan have integrity when you get more 
reductions from no regulations than from your plan?
    Mr. Wheeler. I believe that study just came out yesterday 
or today. I saw an article about it this morning. I have not 
had a chance to review it. I am not sure how they are 
calculating that, but that is not what the career people at the 
agency are telling me about the ACE.
    Senator Merkley. Let us turn to forest fires. It is really 
shocking to hear you say it is forest management. All the 
conditions of longer, hotter summers have tremendously 
increased the fire potential in our forests.
    We saw it devastating Idaho, Montana, Washington, Oregon, 
and California under very different types of conditions. Is 
forest management an issue? Yes, which is why I advocate for 
thinning and fuels reduction, but that is not the reason these 
fires are so much longer. It is because the summer season is so 
much hotter and longer. We have different types of storms that 
are starting a lot more fires.
    I encourage you to actually become informed on this issue 
if you are going to comment publicly on it. Would you agree to 
actually read some of the literature on this?
    Mr. Wheeler. I will agree to continue to read the 
literature on this, yes.
    Senator Merkley. When I spoke to you yesterday, I asked if 
you were aware of how much carbon dioxide rates of production 
and levels of pollution have increased in your lifetime. Can 
you now share with the answer to that question?
    Mr. Wheeler. I believe you told me it was close to 100 
percent increase in CO<INF>2</INF> since I was born.
    Senator Merkley. No, that is not the case but 100 percent 
would be dramatic but it is not that dramatic. In your lifetime 
or my lifetime, I am a few years older than you, it is 100 
points from about 314 to 414, 100 points or is it more like a 
30 percent increase. That is a very significant change in the 
chemistry of our air on this planet.
    The other thing I talked to you about was when you were 
born or I was born, it was about a rate of a third of a point 
per year, and now it is aiming toward two and a half points per 
year. The rate of pollution, despite all the conversation we 
have been having, is accelerating. This is of enormous concern, 
that the rate is actually accelerating despite the 
international conversations.
    My time is up. I hope you will become more familiar with 
these issues. Our entire ecosystem and our rural agricultural 
base--which you have been talking about--our fishing, our 
farming, and our forests, are at grave risk.
    Mr. Wheeler. Thank you, Senator.
    Senator Merkley. I do want to clarify I meant 100 points, 
not percent. That was a mistake.
    Senator Barrasso. Thank you.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Mr. Wheeler. I do want to commend you because 
you have been actively engaged with me and my staff. I truly do 
appreciate the time you have taken to address some of our 
concerns.
    I would like to just have you reaffirm for me today--and 
you know exactly the questions I am going to ask--the 
commitment that we will see E15 for our summer driving season.
    Mr. Wheeler. Yes, we are still on schedule for that. It 
depends on if we are not able to work on it during the 
Government shutdown. When I listed some of the States I visited 
and talked to farmers--I was obviously in Iowa talking to your 
farmers. I am sorry I did not mention that.
    Senator Ernst. I do appreciate that, because I know the RFS 
is very important to our Iowa farmers as well as WOTUS. Thank 
you very much for working on that. We have had a very good 
response.
    I do understand we are in a Government shutdown. I hope we 
can resolve this very soon. Have you been able to take any 
steps that would mitigate any sort of delays we might see due 
to the shutdown for the implementation of E15 year round?
    Mr. Wheeler. I am afraid not on the E15. It is not a court 
ordered deadline for us, and it is not considered an emergency. 
At this point, we can only work on the court ordered deadlines 
emergencies and the constitutional authorities such as 
assisting in my preparation for the confirmation hearing.
    Senator Ernst. We know just this past Monday, the President 
also reiterated again that he wants to see E15 year round, so 
we will hope for the best as we work through the Government 
shutdown.
    When President Trump was elected, REM prices were more than 
a dollar at that time. During 2016 and 2017 we saw over four 
dozen small refinery exemption petitions granted during that 
time period.
    In the last 2 years REM prices have dramatically dropped, 
so they are down to 10 cents and lower now. With the REM prices 
being so much lower today than they were 2 years ago, do you 
agree this means there is less economic hardship associated 
with having to purchase those REMs?
    Mr. Wheeler. The REM prices are certainly one criteria that 
is looked at to determine the economic hardship. The analysis 
for that is conducted by the Department of Energy, and they 
send their recommendations over to EPA.
    Senator Ernst. In terms of addressing those sent over from 
DOE, I do understand they evaluate for that hardship. I would 
say with REMs being a tenth of what they were many years ago, 
the prices, the DOE evaluates for the hardship and makes that 
recommendation to you at the EPA. What is the EPA's role in 
granting or denying a full or partial waiver? Can you describe 
that process to me?
    Mr. Wheeler. It is done by our technical team and the Air 
Office where they review the information from the Department of 
Energy, and they move forward with the recommendation to the 
Administrator for Air and onto myself for a recommendation on 
whether or not to grant a full, partial, or no relief.
    Senator Ernst. Can you assure me that you will be examining 
those exemptions and not giving blanket exemptions as it 
appears has been done in the past by your predecessor?
    Mr. Wheeler. Yes, we will be examining each one 
individually to make sure each one is warranted individually.
    Senator Ernst. Certainly we understand the potential for 
hardship out there, but we do not agree that every exemption 
given in the past has been due to a hardship.
    I have 1 minute left. I want to touch on WOTUS, and again, 
thank you very much for working on that issue. Our Iowa farmers 
and ranchers are very, very appreciative of the work that has 
been done.
    Can you elaborate on how the replacement rule provides more 
clarity to our farmers and landowners than the original 2015 
rule?
    Mr. Wheeler. Absolutely. As I mentioned earlier, we 
specifically define what is a water of the United States, and 
we also define what is not. We are very clear on what is and 
what is not.
    Again, my overarching goal for the WOTUS program is so that 
the property owner can decide for themselves whether or not 
they have water of the U.S. without having to hire outside 
consultants or attorneys to do that for them.
    Senator Ernst. I thank you for that.
    I will give my time back. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    Thank you, Mr. Wheeler.
    I know a lot of my colleagues have brought this up, but you 
are aware of the Intergovernmental Plan on Climate Change?
    Mr. Wheeler. Yes, sir.
    Senator Booker. You disagree with the findings of it?
    Mr. Wheeler. No, I have not disagreed with the findings.
    Senator Booker. I guess I am asking are you aware.
    Mr. Wheeler. I have not disagreed with the findings. I have 
been briefed once by my career staff. They gave me a number of 
background information to read, and we scheduled additional 
briefings on it for early January. Those have been postponed, 
but no, I do not disagree with the findings.
    I am still examining the findings, trying to understand 
what was in it and what was covered.
    Senator Booker. I find that frustrating because of the 
urgency of the challenges we face before us. Again, the review 
talks about the emissions, the urgency to reduce greenhouse gas 
emissions and keeping warming below 1.5 degrees, and 
potentially catastrophic natural disasters, extreme heat, 
literally potentially seeing upwards of $1 trillion worth of 
damage to U.S. property.
    What about the National Climate Assessment issued by the 13 
Federal agencies, including the EPA that was issued last 
November? Are you familiar with that, sir?
    Mr. Wheeler. I am sorry; I thought that was what you were 
asking me about.
    Senator Booker. No, the ITCC report.
    Mr. Wheeler. Oh, the ITCC. I am talking to my staff about 
the U.S. Government assessment.
    Senator Booker. Again, sir, this is cross-agencies that 
have concluded that we are going to suffer impacts, heat 
related deaths, coastal flooding, and infrastructure damage. In 
light of the ITCC scientists, the Federal Government scientists 
that range from the United States military to your very own 
agency, the compelling and overwhelming science of this, there 
is this urgency to move as quickly as possible.
    Yet it seems in light of this the consistency of the 
different regulatory changes you are making fly in the face--
and I know others of my colleagues have brought this up, but 
when it comes to the clean car standards, according to the 
EPA's own analysis of the proposal, you estimated over time 
your recommended approach would result in 7.4 billion tons of 
additional carbon pollution. Do you not agree with that?
    Mr. Wheeler. My career staff has told that it is a slight 
incremental increase from what the Obama administration's 
proposal was. I think a lot of people do not understand that 
under the Obama numbers, they offered a number of exemptions so 
that the actual number itself, the end effect would be lower.
    Senator Booker. I am pulling from the EPA's own analysis. 
You may call it slight, but 7.4 billion tons of additional 
carbon pollution, your Clean Power Plan repeal when it released 
its proposed Affordable Clean Energy Rule, repealing and 
replacing the Clean Power Plan, again, your own analysis from 
your own agency estimates this will lead to substantially 
higher levels of greenhouse gas warming.
    If you go to your air pollution from oil and gas 
infrastructure--again, your own scientists--EPA releases its 
proposed rules, and looking at methane, one of the very 
powerful greenhouse gases, again your own analysis shows your 
weakening of this rule will lead to substantially more 
greenhouse gas pollution.
    Your air pollution from landfills efforts, later in 
October, you released a proposed rule to delay for 2 years, if 
I am correct, the deadline for landfill mission guidelines that 
would limit these very dangerous methane emissions and other 
pollution.
    Again, this 2 year delay seems to again add to that larger 
problem. It seems a consistency of actions you are taking to 
weaken rules undermining the sense of urgency that cross-
agencies are telling us we face growing challenges, not just 
now but really over the next 25 years.
    I am just wondering if your mission at the EPA which is to 
protect human health and the environment, which you swore an 
oath to faithfully discharge these duties, yet you seem to be 
consistently doing things that undermines the health and safety 
of this Nation, the economic well being of our Nation and 
frankly, putting in further peril not just our country but the 
planet.
    I am trying to understand what is motivating this. I do not 
want to be cynical in that question, but why are you pulling 
back on regulations that will ultimately help us to deal with 
what our climate scientists say we need to do in terms of 
reducing the greenhouse gas emissions?
    Mr. Wheeler. I believe we are moving forward on a proactive 
basis on the ACE regulation. I believe that is going to show a 
34 percent reduction in CO<INF>2</INF>. In the course of the 
regulatory analysis for each of our regulations, we do a number 
of different scenarios, a number of different data runs. I 
would be happy to supply information to you in writing, but my 
career staff tells me that our proposal is going to get us a 34 
percent reduction in CO<INF>2</INF> and the Obama proposal 
would have gotten between 33 and 35 percent reduction.
    Senator Booker. I know my time has expired. I would like to 
introduce for the record the data from his own scientists that 
shows what he is saying just does not hold water and 
contradicts the claims he is making.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I would like to interject that the EPA's 
decision to withdraw this so called Clean Power Plan I believe 
was the right one. Twenty-seven States challenged the Clean 
Power Plan in court. The Supreme Court stayed the rule; it was 
not just bad policy, it was against the law.
    Senator Braun.
    Senator Braun. Thank you.
    It is good to be on a Committee like this. It means a lot 
to me. I have been a steward of the land for over 30 years. I 
have always felt that conservatives need to do a better job of 
talking about conservation and talking about the things that we 
believe in that really make a difference.
    I have been a tree farmer for nearly 30 years, involved in 
agriculture. I used it in the campaign. I started the Ecology 
Club back in high school. What we are talking about here is 
important.
    To me, I always view something in the process that you look 
at how you are going to accomplish the goal. I think clean air 
and clean water is important to everyone. I also look at the 
fact that over the weekend--and I know it has been discussed 
here before--I had three different farmers approach me about 
dealing with the technicalities of Waters of the U.S.
    I am going to ask you a couple specific questions, and then 
I want to get your viewpoint on how we navigate this dynamic of 
wanting to adhere to what I think all of us believe in, clean 
air, clean water, good health, and then the practicality of 
doing what you do through the EPA to make sure we take care of 
the big picture and not unduly complicate lives for people on 
the firing line.
    Waters of the U.S., the ruling, as given in 2015, has it 
changed at all in the meantime, or is it in the process of 
being looked at?
    Mr. Wheeler. The 2015 Obama proposal was stayed by some 
courts, has been implemented by others. Right now we have a 
patchwork quilt of what is the current regulatory process for 
Waters of the United States which is why we came out with our 
proposal in December to rewrite and redo the Waters of the 
United States going forward.
    I believe we are going to provide the certainty the 
American public needs in order to protect the waters of the 
United States.
    Senator Braun. In my State of Indiana, is the regulation 
component being administered more through State agencies trying 
to figure out what the ruling is or the interpretation of it, 
or is it being mandated more from the EPA?
    In other words, I get the feeling in our case we might be 
not fully understanding what that regulation is and maybe being 
overbearing in the enforcement of it.
    Mr. Wheeler. It is a rulemaking in conjunction with the 
Army Corps of Engineers. They are the ones that issue the 
permits on the ground and would be working with your 
constituents in Indiana. It varies from State to State right 
now based upon the district courts as far as which standard is 
in place, the prior to 2015 or the current 2015.
    Senator Braun. What is your goal to have that fully 
clarified so farmers and State agencies know what is what?
    Mr. Wheeler. We issued our proposal in December. It is out 
for public comment. I do not believe it has been published in 
the Federal Register because of the shutdown. Our goal is to 
have that rulemaking completed before the end of this year.
    Senator Braun. Do you consider yourself a conservationist? 
How will you measure your own success in this job once you get 
into it?
    Mr. Wheeler. I do consider myself a conservationist. I am 
an Eagle Scout, I am an avid hiker and camper. I still hike and 
still camp. When I met with you last week, I shared with you so 
far my favorite job in my life has been as a Boy Scout summer 
camp counselor for three summers when I was in college.
    I am a big believer in the outdoors, and I think success 
will be that we have moved the ball forward on reducing 
pollution. I will go back to what I said in the opening 
statement, helping communities that are ravaged by Superfund 
sites. It greatly impacts low income Americans, oftentimes and 
in most cases, minority communities, and try to help those 
communities.
    Some of the Superfund sites we have cleaned up and we are 
getting cleaned up are contaminated by lead. These are areas 
and communities where actually people and families are living 
today. To get those areas cleaned up so those children are not 
exposed to lead is very important.
    There is one site in Colorado that I did not mention in my 
opening statement. It was on track to be cleaned up over I 
think 20 years. We are speeding that up. We are going to get 
that cleaned up in the next few years so that we will not have 
two generations of children growing up in low income housing 
subjected to lead in their ground.
    Senator Braun. Thank you.
    Mr. Wheeler. Thank you.
    Senator Barrasso. Thank you very much.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Deputy Administrator Wheeler, as you know, I am very proud 
that my State is home to EPA's Region V office, which features 
civil servants who are leaders in the fields of water quality, 
Superfund cleanup, and Great Lakes restoration.
    I am, however, concerned that EPA Regional Administrator 
Cathy Stepp and other political appointees are working to 
undermine that important work. An ATSDR report published last 
year indicated an elevated cancer risk in the community of 
Willowbrook, Illinois, as a result of being next to a facility 
that uses ethylene oxide, a known carcinogen.
    I do want to thank you for how accessible you have been to 
me and Senator Durbin on this issue, for numerous personal 
phone calls you got on, and meeting with us in person. Thank 
you for how accessible you have been. It has been a nice change 
from your predecessor.
    However, recently my office received alarming information 
alleging that senior political appointees instructed EPA 
personnel not to inspect any facilities in Region V that emits 
ethylene oxide. Yesterday evening when we checked EPA's public 
enforcement tool, the Eco tool, we found there has been no 
ethylene oxide inspection across the country in at least the 
last 6 months. This disclosure is incredibly disappointing to 
me.
    The EPA Office of Inspector General should immediately 
begin an independent investigation into this allegation that 
political appointees within the EPA are issuing orders to not 
conduct ethylene oxide inspections.
    Will you commit now to joining me in requesting that the 
EPA OIG initiate an investigation into this public health 
matter?
    Mr. Wheeler. First, Senator, I would like to talk to my 
staff and find out what is going on. This is news to me. I 
would like to know whether or not it is accurate before I go 
further with that.
    Senator Duckworth. We ran the check just yesterday evening 
after you and I had spoken.
    Will you at least commit to issuing a document retention 
order to all personnel in Region V and promise to me that EPA 
will monitor all facilities in my State that emit this 
carcinogen?
    Mr. Wheeler. I know we are monitoring a number of 
facilities that release ethylene oxide not just in your region 
but across the country. We are looking at all of them.
    The Willowbrook facility that mentioned, we have had a 
couple of public meetings there where we have discussed the 
monitoring data with the residents of the community. We are 
looking at the emissions at other facilities around the 
country. I know that is taking place.
    Senator Duckworth. What about issuing a document retention 
order to all personnel as I will be requesting an IG 
inspection?
    Mr. Wheeler. If there is an issue there, certainly we want 
those documents retained, not just for this but for anything. 
We maintain all of our documents.
    Senator Duckworth. Thank you.
    Right before the holidays and the Government shutdown, you 
announced release of the Administration's long delayed Lead 
Action Plan. I was disappointed to see that this plan walks 
back earlier goals on eliminating lead exposure. In fact, the 
new plan has the objective to reduce children's exposure as 
opposed to eliminate their exposure in homes and child occupied 
facilities with lead based hazards.
    Will you commit EPA to the goal of eliminating--not just 
reducing but eliminating--lead exposure in children?
    Mr. Wheeler. It is certainly our goal to eliminate lead 
exposure in children, and we do want to do that. We are moving 
forward with a number of regulatory programs to accomplish 
that, the Lead Dust Rule that I mentioned earlier, or Lead and 
Copper Rule. This would be the first time in over 20 years. We 
take very seriously lead contamination at Superfund sites 
around the country.
    Senator Duckworth. Thank you.
    Will you immediately reinstate Dr. Ruth Etzel who led the 
Office of Children's Health Protection and was abruptly put on 
leave?
    Mr. Wheeler. I am sorry, what were you asking about Dr. 
Etzel?
    Senator Duckworth. Will you immediately reinstate her?
    Mr. Wheeler. She is on investigative leave because of 
allegations by her employees. I cannot go into more detail in a 
public setting because of personnel issues, but I would be 
happy through the oversight function of the Committee to brief 
you. I think we have to go through the Chairman to do that. I 
want to make sure my general counsel is involved to go into 
more detail about the circumstances around that.
    Senator Duckworth. Thank you.
    As some of my colleagues across the aisle have mentioned, 
the state of renewable fuels industry in this country is at a 
turning point. Over the last 6 months, we have seen more 
ethanol plants sold, idled, or closed than ever before.
    Meanwhile, EPA is granting the world's largest refining 
companies the so called hardship waivers. My colleague, Senator 
Ernst, brought up the issue of these hardship waivers.
    These companies are earning record profits--billions with a 
B. The CEOs of these companies have even pointed to the fact 
they were able to obtain these hardship waivers on their 
earnings calls as contributing to their profitability.
    You promised to finalize a waiver for E15 blends by May 31. 
Will you also promise that you will end this abuse of the 
hardship waivers by companies like Exxon or Chevron?
    Mr. Wheeler. Senator, the hardship waiver is based on the 
refinery itself not the refiner. It is based on the actual 
refinery. It does not matter who the parent company is. There 
could be a hardship at a refinery. We want to make sure that 
just because you are a large company, if a refinery is not 
economical, we do not want those shut down because of this 
program.
    Oftentimes these small refineries are located in the Rocky 
Mountains and other areas where they are the only supplier of 
gasoline in their region. We have to base it according to both 
the statute and the regulations on the size of the refinery, 
not the refiner.
    Senator Barrasso. The Senator's time has expired.
    Senator Duckworth. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Mr. Wheeler, thank you for your service to our country and 
your willingness to take on this job. I also want to thank your 
family. As you know, these jobs oftentimes entail the whole 
team, so thank you. I know some of them are here, and we really 
appreciate you guys being here. I am sure you are proud of your 
spouse or your dad who is in the chair. Thank you.
    I also appreciate the time you spent with me. I think one 
of the themes here is how responsive you are to Democrats and 
Republicans. That is a real important part of the job.
    Our discussion yesterday had a number of Alaska related 
issues, the PM<INF>2.5</INF> non-attainment problem in 
Fairbanks and North Pole, Alaska, working on clean water issues 
in my State, particularly in rural communities, cleaning up 
ANCSA, contaminated lands which the Ranking Member and I had a 
bill last year that passed that helped do that. Transmining 
issues are a big challenge in Alaska. I am not going to go into 
each of those.
    One commitment I do want to get from you is to get up to 
Alaska soon after your confirmation. Can I get a commitment 
from you on that?
    Mr. Wheeler. Yes, sir, I would be happy to.
    Senator Sullivan. Maybe even if I invite you in the winter, 
it is 45 below in Fairbanks right now, so you have to be a 
little tough to come up.
    Mr. Wheeler. August sounds great.
    Senator Sullivan. Maybe I am not going to be so supportive. 
No, I am just kidding.
    This is a confirmation hearing that is supposed to look at 
your past qualifications and experience for the job. What was 
your first job out of law school?
    Mr. Wheeler. My first job was a career employee at EPA 
working in the Toxics Program.
    Senator Sullivan. You were a career employee at the EPA. 
You did that for how long?
    Mr. Wheeler. For 4 years.
    Senator Sullivan. You received some awards I believe during 
that time?
    Mr. Wheeler. I did. I received three bronze medals.
    Senator Sullivan. What does that mean?
    Mr. Wheeler. They were not gold or silver but they were 
still very important.
    Senator Sullivan. You got medals though, right, from the 
EPA as a career employee?
    Mr. Wheeler. Yes, a career employee.
    Senator Sullivan. I think that is important. You would 
probably be one of the first career employees to run the 
agency, wouldn't you?
    Mr. Wheeler. I believe Steve Johnson, an Administrator 
under President Bush, was probably the first.
    Senator Sullivan. Then you came to this Committee, which 
has oversight of the EPA and all the issues covered; how long 
were you at this Committee?
    Mr. Wheeler. Fourteen years.
    Senator Sullivan. Fourteen years as counsel and staff 
director?
    Mr. Wheeler. I was the staff director and chief counsel for 
the last 6 years that I worked here.
    Senator Sullivan. Essentially, you were the main guy 
running the Committee, with the exception of the Senators?
    Mr. Wheeler. I had a lot of help. There was a Chairman with 
a gavel, yes.
    Senator Sullivan. I think it was Senator Inhofe, so I do 
not want to get in trouble here, but you know what I mean.
    We are talking almost 20 years in the public sector either 
at the EPA or at the Committee overseeing the EPA, correct?
    Mr. Wheeler. Correct.
    Senator Sullivan. I think that is really strong 
qualifications for this job. Hopefully my colleagues on both 
sides of the aisle will at least acknowledge that, because it 
is obvious. You come highly, highly qualified in the public 
sector. We appreciate that, your service to America.
    Mr. Wheeler. Thank you, Senator.
    Senator Sullivan. I hope the media that is watching this 
hearing will write about your almost 20 years of public sector 
because what they love to write about is ``a lobbyist for a 
coal company.'' So you were a lobbyist.
    Mr. Wheeler. I was.
    Senator Sullivan. Can you talk about what you did in that 
job, and I know Murray Energy comes up. What was your big issue 
with representing them? You represented a lot more.
    Mr. Wheeler. Yes, I represented over 20 different clients 
during my time as a consultant. I ranged from companies to 
trade associations to NGOs. I represented an air quality 
management district in California. For the last 4 years that I 
represented Murray Energy, the No. 1 issue I was asked to work 
on each of those 4 years was to try to shore up the United Mine 
Workers pension and health care funds.
    They were underfunded. We were successful on the health 
care side, but we were not successful in getting the pension 
bill through Congress before I left, but I am very proud of the 
service that I did there. I am very proud of the work I did.
    Senator Sullivan. I hope our friends in the media might 
want to cover that issue as well. I am sure Senators Capito and 
Manchin also appreciate that hard work. We all do. I have coal 
miners in my State, I have miners in my State, and they are 
great Americans.
    Let me ask one final question. Oceans and ocean pollution 
and plastics is a huge issue, an issue we have made a lot of 
bipartisan progress on, pointing to Senator Whitehouse's empty 
seat. He and I had a bill last year that the President signed. 
The Trump administration is doing great work on this, arguably 
much better than the previous Administration.
    We are going to soon put forward our Save Our Seas Act 2.0. 
Save Our Seas Act 1.0 was signed by the President just a couple 
months ago with Senator Whitehouse and I both in the Oval 
Office.
    Do you have any ideas that we can move forward with on 
addressing the big challenges we have with ocean pollution, 
plastics, and the role that you have already played in that 
regard with regard to the EPA?
    Senator Barrasso. Perhaps the nominee could very briefly 
answer and in writing as well.
    Senator Sullivan. Or maybe just commit to work with us just 
to keep it short.
    Mr. Wheeler. I would be happy to commit to work with you. 
It is a very big problem internationally and something we are 
on top of.
    Senator Sullivan. Great.
    Thank you very much.
    Senator Barrasso. I would like to interject that the 
nominee has received praise from the United Mine Workers of 
America. Cecil Roberts, the United Mine Workers International 
President has said the following of Mr. Wheeler, and I am going 
to submit the statement to the record. He said, ``He will be a 
reasonable voice within the agency and will recognize the 
impact on both the workers and the mining communities directly 
affected as EPA develops future emissions regulations.''
    That will be submitted to the record without objection.
    [The referenced information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Wheeler, earlier you said that you thought we were 
having a climate issue and not a climate crisis. Is that 
correct?
    Mr. Wheeler. I did say that, yes.
    Senator Markey. Let me just begin by saying I think you are 
100 percent wrong. We are having a climate crisis. How do I 
know? I know because 13 Federal agencies, including your own, 
in November issued a report. Here is what all 13 Federal 
agencies said: ``Our efforts do not yet approach the scale 
necessary to avoid substantial damages to the economy, 
environment and human health.''
    How did President Trump respond when asked about the 
conclusion of the National Climate Assessment that your agency 
helped to produce that climate change could devastate the 
American economy? He said, ``I don't believe it.'' Do you agree 
with Donald Trump?
    Mr. Wheeler. I believe President Trump was referring to the 
media reports of the assessment itself. I questioned the media 
reports as well because they focused on the worst case scenario 
and also focused on one study that was actually not in the 
report. That is the study that said there would be a 10 percent 
hit to the GDP. I believe that was what he was referring to, 
and that was what I raised questions about after the assessment 
was released.
    Senator Markey. So you do not agree with the broader 
conclusion that the actions we are taking do not approach the 
scale necessary to avoid substantial damage to our country? You 
do not agree with that?
    Mr. Wheeler. No, I did not say that, Senator.
    Senator Markey. I am asking you that question. Do you agree 
with that conclusion?
    Mr. Wheeler. I have been briefed by my career staff after 
the assessment came out, and I have asked a number of 
questions. We have a number of follow up briefings scheduled 
for them to go over the findings in the assessment.
    Senator Markey. The report came out in November. You are 
the head of the EPA. We are heading to the end of January.
    Mr. Wheeler. I did not review the report before it came 
out. There was no political interference in the assessment. We 
have been shut down for the last few weeks. I have been briefed 
by my staff once on the assessment, and we have several 
briefings scheduled before I can make further public comment.
    Senator Markey. That is not acceptable. You are looking to 
be confirmed as the head of the Environmental Protection 
Agency. We are having a hearing on your worthiness for this 
job, and you very conveniently have not had enough time yet to 
review whether or not there is an extra level of urgency to 
this problem.
    You are saying it is a worst case scenario they are talking 
about, so therefore you do not have to deal with it, but the 
worst case scenario is your proposal to roll back the fuel 
economy standards in our country.
    The worst case scenario is your proposal to roll back the 
rule to reduce emissions dramatically from the coal burning 
plants in our country. That is where it is relevant that you 
are a former coal industry lobbyist who is sitting here. Your 
proposal to roll back those regulations is the worst case 
scenario, what you are proposing.
    My question to you is in terms of fuel economy standards, 
we import 2.5 million barrels of oil a day from OPEC, 2.5 
million barrels a day. We have young men and women all over the 
Middle East protecting that oil coming in.
    Do you think that is a worst case scenario, or do you think 
that is something we should accept by not increasing the fuel 
economy standards because interestingly under the Obama 
standards, we back out 2.5 million barrels of oil a day every 
day that we would import from OPEC. Do you think that is a 
worst case scenario, or do you think that is something we 
should maintain and increase as our goal, Mr. Wheeler?
    Mr. Wheeler. Senator, first of all, we did not roll back 
the Clean Power Plan because the Clean Power Plan never took 
effect. It was stayed by the Supreme Court. Our proposal 
follows the Clean Air Act, follows the court decisions.
    Senator Markey. The effect of your decision is to not 
implement the Clean Power Plan. It dramatically reduces 
greenhouse gases.
    Mr. Wheeler. It was stayed by the Supreme Court because it 
went outside the bounds of the Clean Air Act. What we put 
forward is a proposal that follows the Clean Air Act and 
follows the law.
    Senator Markey. Here is the problem I have, sir, with you. 
In this hearing, you are putting up a smoke screen to ensure 
that there is an advancement of Donald Trump's dirty policies. 
The impact on ordinary families, their health, the health of 
our country, the security of our country is absolutely urgent.
    The American people want higher fuel economy standards, 
they want higher standards for reducing pollutants going into 
the lungs of the people in our country, and what you are here 
doing is defending Donald Trump's policy. I don't believe it, 
he said. The American people believe it because they know it is 
American scientists that came to this conclusion, including 
your own.
    You can say you have not had time to read it but that, in 
and of itself, from my perspective, is a disqualification for 
having the job which you are sitting here seeking to be 
nominated for.
    Mr. Wheeler. I did not say I did not read it. I said I that 
I have not finished being briefed on it by my staff.
    Senator Barrasso. The Senator's time has expired.
    I would like to interject. The EPA's decision to review the 
vehicle standards was the right one. In 2017 the Alliance of 
Automobile Manufacturers sent a letter to the EPA stating, ``If 
left unchanged, these standards could cause up to 1.1 million 
Americans to lose their jobs due to lost vehicle sales, and low 
income households would be hit the hardest.''
    I ask unanimous consent to enter this statement into the 
record.
    Without objection, it will be done.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Cramer.
    Senator Carper. Mr. Chairman.
    Senator Barrasso. Senator Carper.
    Senator Carper. I would like to ask unanimous consent to 
submit for the record a letter I sent to Mr. Wheeler last month 
asking about the possible coordinated campaign between Mr. 
Wheeler and the White House to bury the results of the report 
mentioned by Senator Markey and other materials as well related 
to EPA's efforts to take us backward on climate change and the 
climate change crisis.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman.
    Thank you, Mr. Wheeler, for being here and your willingness 
to serve in this capacity. I believe when you and I sat down in 
my transitional office, I had not been appointed to this 
Committee yet, but you were telling me it was the best 
committee in Congress.
    Mr. Wheeler. I stand by that. It is the best committee in 
Congress.
    Senator Cramer. I appreciate that.
    Before I forget, up front, I want to also invite you to my 
State of North Dakota. You can come in August if you like, but 
January and February are not quite as cold as Alaska, but you 
could bring your family and go camping. We would love to have 
you and would especially invite you to the Energy and 
Environmental Research Center at the University of North Dakota 
where we could have a discussion on these and several other 
topics that are important.
    I also want to thank you for your very good work on the 
rollback of Waters of the U.S. and coming up with what I am 
sure is a much more common sense and legal definition of Waters 
of the U.S. and the same with regard to the Clean Power Plan 
being replaced by ACE.
    While I appreciate the passion from some on the other side, 
I am quite certain that ignoring a Supreme Court stay is not in 
your authority, is it?
    Mr. Wheeler. No, it is not. We have to follow the Supreme 
Court.
    Senator Cramer. I would think so. Thank you for that.
    I also want feedback a little bit on what Senator Ernst 
talked about with regard to the year round E15. That was 
something that I had advocated for a long time. Certainly she 
and others, not just advocates of ethanol, but I think as 
conservatives, we like to eliminate barriers to markets.
    While some might argue over the RFS or the volume set, 
again, the law is the law. I think it was an appropriate move, 
and I congratulate you and appreciate what you and the 
President did in making that commitment. With regard to the 
RFS, there are as many opinions and there are divergent 
opinions in North Dakota as you might imagine as there are in 
this room on the RFS and what it should do and what it should 
not do.
    I would like to ask you though, what is your professional 
opinion on what happens in 2022, because I think sometimes we 
discuss this issue or pass each other without a clear 
understanding of what exactly the law does in 2022 and what 
options there are, and what happens if we do nothing?
    Mr. Wheeler. If Congress does nothing by 2022, then the 
implementation and operation of the program would be up to the 
agency, up to the EPA. We could continue the program as is. 
There are a number of different options we could do. We have 
not started to look at what we might do in 2022. I know there 
is legislation at least in the House on extending the program 
further, but we will have to make some decisions as far as what 
the RFS Program looks like post-2022.
    Senator Cramer. Would it be your recommendation that 
Congress get together with all our divergent views and find a 
prescriptive solution that does not leave too much discretion 
over the course of Administration after Administration?
    Mr. Wheeler. I think it is always helpful for Congress to 
write the legislation that directs the agency to implement the 
programs. I think where the agency, the EPA has gotten into 
trouble in the past in the Obama administration with the Clean 
Power Plan is when they went beyond the law.
    Senator Cramer. I agree. Thank you for that.
    Now, just as a matter of following up a little bit on what 
Senator Sullivan was talking about, and I have sat here--and I 
apologize, Mr. Chairman, for being late. I had my first day of 
presiding over the Senate this morning. And not nearly as 
exciting as this, I might add.
    I am perplexed a little bit. Let's go back to what Senator 
Sullivan said. It occurred to me as he was talking, did those 
18 years as a professional staff person at the EPA prepare you 
well for your work in private industry?
    Mr. Wheeler. It did. And I think my overall career, both 
implementing laws at the EPA and at the beginning of my career 
to helping to draft the laws here when I worked in the Senate 
to talking to a wide variety of different clients, potential 
clients, clients when I was in the private sector, to see how 
the regulations, the laws were impacting hard working people 
who were trying to make a living.
    Senator Cramer. And I would suspect that your further work 
in industry prepared you well for this job, and I want to 
appreciate that. With time running out, I would just like to 
propose some scenarios, like should we bar farmers from being 
Secretary of Agriculture? Should we bar doctors from being the 
head of Health and Human Services, or attorneys from being the 
Attorney General? Or bankers from being head of the Treasury 
Department and what-not? I just think this is a very funny path 
to go down, realizing this is my first confirmation hearing. 
Maybe I don't know everything I should.
    Mr. Wheeler. I agree with you, I don't think we should ban 
farmers from being head of the USDA, or doctors at HHS and 
bankers of, whatever the banker's the head of.
    [Laughter.]
    Senator Cramer. Treasury.
    Thank you, I yield back, Mr. Chairman.
    Senator Barrasso. Thank you so very much.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, and welcome, 
Mr. Wheeler. I do want to associate myself with some of the 
comments made by the ranking member and others regarding 
climate change, auto emissions standards, mercury rules. And I 
do appreciate your working with Senator Cardin and I and others 
on the Chesapeake Bay and look forward to continuing that work 
together.
    But I wanted to use my time today to talk about this 
shameful and unnecessary Government shutdown. We are now 26 
days into it, the longest Government shutdown in U.S. history. 
My understanding is there are about 13,000 EPA employees that 
are currently furloughed. Is that correct? Approximately?
    Mr. Wheeler. Approximately, yes, sir.
    Senator Van Hollen. And that there are approximately 891 
who are on the job, is that approximately right?
    Mr. Wheeler. That sounds pretty exact, 891. It varies from 
day to day. We bring back people to work on specific issues.
    Senator Van Hollen. Right. Including some that you brought 
on to prepare for this hearing, is that right?
    Mr. Wheeler. Yes, Senator.
    Senator Van Hollen. And you've worked at the EPA, you've 
had experience. In your experience, are these hard working, 
dedicated civil servants?
    Mr. Wheeler. Yes, they are. I have full confidence in the 
EPA staff.
    Senator Van Hollen. And have they shared, some of them, 
their stories of hardship with you, what they're experiencing 
now because of the shutdown?
    Mr. Wheeler. Yes, and I was an EPA employee back in the 
1990s when it was shut down, and I remember the frustration at 
the time. And my heart goes out to the EPA employees and all 
the other ones who are on furlough.
    Senator Van Hollen. And I appreciate that, because they are 
definitely stuck in the middle of something they had nothing to 
do with.
    I just want to read some of the statements I am getting 
from EPA employees; I am sure you are as well. ``I work for the 
EPA and have been furloughed.'' Then it goes on to say, ``I 
have triplets that are in college, and it is very tough to meet 
their education needs and pay our bills without my salary, 
which is the major income source for our family. My son has 
Crohn's disease, requiring expensive medical treatments.'' She 
also goes on to say, ``Our younger employees at EPA have just 
started out, and are unable to make rent and loan payments.''
    Here's another employee who's been furloughed. She actually 
may be here in the audience today. ``I work for EPA. I love my 
job, and feel like my program is important to protecting public 
health.'' She goes on to say, ``My son is a junior in high 
school. I found out yesterday that fees for the AP exams are 
due January 31st. I don't see how I can afford to pay these 
fees. He is going to lose the opportunity to pass four AP 
tests. Ironically, one of them is U.S. Government.''
    Another one, 15 year old student, Montgomery County, 
Maryland: ``I am a 15 year old student. My father, like many 
people in this area, is a Federal employee working at the EPA. 
He has now missed an entire pay check from the shutdown, will 
likely miss another if this keeps up. Please vote to override 
the veto.'' Of course, we don't have a chance to override the 
veto because we haven't passed legislation that is pending here 
in the U.S. Senate.
    Mr. Wheeler, I have here in my hand the mission statement 
for the EPA. First line, the mission of the EPA is to protect 
human health and the environment. EPA works to ensure that. It 
goes on to list a number of things, starting with Americans 
have clean air, land, and water. I assume you are familiar with 
the EPA mission statement.
    Mr. Wheeler. Yes, I am.
    Senator Van Hollen. And there is nothing in this statement 
about how the EPA is the lead agency when it comes to issues of 
border security, is there?
    Mr. Wheeler. Border security, no.
    Senator Van Hollen. Border security, homeland security.
    Mr. Wheeler. We do a lot of border work, that is, a lot of 
pollution.
    Senator Van Hollen. I am referring, Mr. Wheeler, to the 
security aspects of the job with respect to border security. 
That is done primarily by the Department of Homeland Security, 
is it not? This is not a trick question.
    Mr. Wheeler. Well, no, because we do a lot of inspections 
along the border.
    Senator Van Hollen. I know you do stuff along the border. 
But here is my question. You are familiar that last August the 
U.S. Senate passed the appropriations bill for the EPA by a 
vote of 92 to 6? Are you familiar with that?
    Mr. Wheeler. Yes, Senator.
    Senator Van Hollen. It was an overwhelming vote.
    Mr. Wheeler. Yes.
    Senator Van Hollen. That bill is now before the Senate 
again, as part of other bills that had overwhelming bipartisan 
support in the U.S. Senate. And the Republican leader says that 
we can't vote on this bill, because the President of the United 
States won't sign them. My question to you is, why won't the 
President, you are the senior Administration official here 
today in this middle of this shutdown, and this Committee, why 
won't the President sign a bill to fund EPA, which has nothing 
to do with the Government shutdown, a bill that passed this 
body 92 to 6? Can you just explain to people, including the 
people that wrote in to me, why that is the position of the 
President of the United States?
    Mr. Wheeler. Well, the President takes border security very 
seriously.
    Senator Van Hollen. I am asking about the EPA bill, Mr. 
Wheeler. Why is it that he refuses to support a bill that 
passed the Senate by 92 to 6? We care about border security, 
too. Why is it that he says he won't sign a totally unrelated 
bill? Why is that?
    Mr. Wheeler. Well, I believe the President has been very up 
front about his desire to have all the appropriation bills pass 
at the same time, along with the border security. The border 
security, as you mentioned, is outside of the--outside of our 
authority at the EPA.
    I do want to take a moment to thank you for helping pass 
legislation guaranteeing that all the furloughed employees will 
get back pay. That is very important to the employees. On 
behalf of my employees at EPA, I thank you for your work on 
that, and Congress. I think that was a very important message 
to send.
    Senator Van Hollen. I am grateful that you mentioned that. 
Thank you for saying that. And I just have one request as we 
leave here. The President has not yet signed that bill. Will 
you urge the President of the United States to sign that bill?
    Mr. Wheeler. I think it is important to have all the 
appropriations bills signed along with the border security that 
the President, that the American people want.
    Senator Van Hollen. No, we passed this is in the Senate and 
the House separately, right? And I have no reason to believe 
that the President is not going to sign; in fact, the 
Republican leader said that the President was going to sign it. 
My question is, will you on behalf of your employees urge the 
President to sign the bill?
    Mr. Wheeler. I am sure that the wants to reopen the 
Government as much as you do.
    Senator Van Hollen. No, this is not a question of reopening 
the Government. This is a bill that has already passed during 
the Government shutdown to provide some confidence and 
certainty that at the end of the day people will be made whole. 
I appreciate your mentioning the importance of that bill. On 
behalf of your employees at EPA, can you ask the President to 
sign the bill?
    Mr. Wheeler. Senator, I also know that this is part of a 
larger negotiation, and I hope that all the parties can come to 
the table and negotiate and end this shutdown as soon as 
possible.
    Senator Van Hollen. Well, this Senate, on a bipartisan 
basis, was able to do this for the reasons you say in the 
middle of a shutdown. I hope the President will sign the bill, 
and I really encourage you to let your employees know that you 
support the bill.
    Senator Barrasso. The Senator's time has expired.
    This is the end of the first round of questioning. We are 
going to proceed, if we could, to the second round. Probably 
fewer members will want to ask a second round of questions, and 
we do have a roll call vote coming up at 12:30.
    So I just want to go into round two. I understand that when 
considering a small refinery's petition for hardship relief, 
under the Renewable Fuels Standard, RFS, the EPA consults with 
the Department of Energy, as you mentioned.
    Mr. Wheeler. Yes.
    Senator Barrasso. These two agencies conduct a detailed, 
objective analysis based on the small refineries confidential 
business information. Under the Clean Air Act, the agencies 
must look at each small refinery on an individual basis, which 
you had mentioned in a comment earlier, regardless of whether 
the refinery is part of a larger company. Is that your 
understanding of the law?
    Mr. Wheeler. Yes, it is, sir.
    Senator Barrasso. OK. Now, I also want to thank you for 
withdrawing the Obama administration's proposed duplicative 
rule on groundwater monitoring on in situ uranium recovery. 
This rule was a midnight regulation the EPA issued the day 
before President Obama left office. When you talk about a 
midnight regulation, that by definitely really, really fits it.
    The Nuclear Regulatory Commission--our Nation's principal 
nuclear regulator--stated that there was no health or safety 
justification for the rule. The NRC has also said that the rule 
interfered with its jurisdiction over uranium recovery 
activities. To ensure this doesn't happen again, I have written 
EPA, asking the agency to sign a memorandum of understanding, 
which would clarify the NRC's and the EPA's jurisdiction over 
those activities.
    Do you know if this work has begun on that memorandum of 
understanding?
    Mr. Wheeler. It has begun; it began before the end of last 
year. At this point, we are not working on it because it is 
part of the shutdown. But it has begun, sir, yes.
    Senator Barrasso. Great. The cost of regulations coming out 
of the EPA was staggering before President Trump took office. 
According to the Office of Management and Budget, major EPA 
rules cost between $54 billion and $86 billion a year, between 
the years 2006 and 2016. That total was more than the cost of 
major rules from seven other Cabinet level Federal agencies 
combined. Seven agencies combined.
    Has this Administration taken a hard look at those costs, 
and in your opinion, has the EPA better balanced regulatory 
costs with environmental protection?
    Mr. Wheeler. We have. And we have a cost-benefit rule that 
we proposed in early last year, we received 3,200 comments on 
it. We are reviewing those comments and plan to go forward with 
that, which will help define how we look at cost-benefit 
analysis across the board.
    Senator Barrasso. I have seen some stories in the press the 
EPA enforcement cases have fallen. In my opinion, how many 
enforcement cases are filed isn't the best metric to measure 
the EPA's successes. Our goal should be to actually make sure 
that people are following the law in the first place. This is 
called the compliance assurance, making sure that businesses 
across the country comply with the law up front, so that 
enforcement actions aren't needed.
    What is the EPA doing to improve compliance assurance?
    Mr. Wheeler. We are working very hard on compliance 
assurance. I think the agency has for a number of years. I 
think the more compliance assurance that we have, the fewer 
enforcement actions that we need to take.
    But there has been lot of misleading information in the 
news media about our enforcement program. I would like to 
correct two items real fast if you don't mind. Last summer, a 
group, EGGI, released a report on what they thought our 
enforcement numbers were. We went over it, and we went over it 
again, and our career people went over it, and it appears that 
they made some simple mathematical errors in their report. They 
claimed, for example, that our administrative compliance orders 
were down 42 percent, but actually they were up 3 percent.
    And just recently, PEER released a report on our criminal 
enforcement program. They said that we are making the criminal 
referrals. We don't actually make criminal referrals. We make 
requests for prosecutorial assistance. And at the agency, the 
metric that we use is to track the number of new criminal 
enforcement cases that open each year. Last year we opened more 
criminal enforcement cases than in 2017. That reversed a 
downward trend that started in 2011. So since 2011 we have been 
on a steady decline. Last year we reversed the decline for the 
first time.
    Senator Barrasso. Anything else from the first round of 
questions that something has just come to you, and you say, 
gee, I would like to clarify something?
    Mr. Wheeler. Well, I would like to clarify, because there 
has been a lot of discussion on our CAFE proposal. And a lot of 
it having to do with the CO<INF>2</INF> remissions and 
reductions from the CAFE proposal. And yes, under President 
Obama's proposal on CAFE, that was their one goal for the 
program, was energy efficiency, CO<INF>2</INF>.
    We have multiple goals for the program, multiple policy 
goals, including protecting lives. Under our proposal, we have 
submitted that there will be 1,000 lives saved a year under our 
CAFE proposal. I neglected to mention that earlier, but I think 
that is very important for everyone to understand. It would 
decrease the cost of a new care by $2,300. And that will get 
older cars off the road. And when you get an older car off the 
road, people are buying safer cars, and it will save 1,000 
lives a year. I think that is a very important fact to get out 
there in the public.
    Senator Barrasso. Thank you.
    Senator Inhofe, do you have a unanimous consent?
    Senator Inhofe. I do have a unanimous consent request. I 
would like to submit these studies into the record. Both are 
from the Department of Agriculture and Consumer Economics at 
the University of Illinois-Urbana. The first study is from 
September 2018. Its conclusion: ``Little if any evidence that 
the blend rate for ethanol has been reduced by small refinery 
exemptions.'' The second one: ``The updated analysis in this 
article shows even less evidence that the blend rate for 
ethanol has been reduced by SREs.''
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Carper.
    Senator Carper. I have a couple UC requests, Mr. Chairman. 
First of all, Mr. Chairman, I ask unanimous consent to submit 
for the record articles that describe Mr. Wheeler's troubling 
decision to continue his predecessor's efforts to weaken EPA's 
enforcement power, including maintenance of the sue and settle 
directive changes, and the Clean Water Act enforcement, and the 
twice introduced proposal to eliminate the Office of 
Environmental Justice.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. And second, I would like to ask unanimous 
consent to submit for the record materials that indicate that 
the safety analysis that Mr. Wheeler referred to with respect 
to the previous Administration's CAFE proposals, that that his 
safety analysis, which I think is badly flawed from this 
Administration, I would like to have for the record an analysis 
that indicates as much.
    Senator Barrasso. Without objection, and please feel free 
to proceed with your round two of questions.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you.
    I have sat in this hearing room for 18 years. I have always 
looked for--and I think my colleagues for their part--always 
look for win-win situations. I always look for situations where 
we can have good things for our air, water, public health, and 
do so in a way that does not impinge or degrade economic 
opportunity, economic growth.
    I have raised in conversations with you, Mr. Wheeler, and 
here today, three instances where I believe we can do good 
things for our planet, for those of us who live here, and 
actually provide economic opportunity for American business. I 
have just talked 2 days ago with a cross-section of auto 
companies from all over the world. We talked about fuel 
efficiency standards, tailpipe emission standards. They are 
pleading for certainty.
    They said to me repeatedly, we don't want to spend the next 
4 or 5 years in a court battle with California and 13 other 
States, including Delaware, on what these standards should be. 
We need certainty; we need predictability. We need near term 
relief. And in the out years, we can, with a lot of electric 
powered vehicles and hydrogen powered vehicles, we can 
prescribe for and meet much more rigorous standards for CAFE.
    I am troubled by something you said here. I think you said 
you have talked to the woman who runs CARB out in California, 
Mary Nichols, three times in I think 9 months about this. We 
are talking about the greatest source of carbon emissions on 
our planet is our mobile sources, our cars, trucks, and vans. 
California is critical to getting a deal, so are the other 13 
States, including Delaware. And the idea that you spoke with 
her, whether it is her fault, your fault, three times in the 
course of a year, is deeply troubling.
    One of the thoughts that keeps coming back to me in this 
conversation today, this hearing today, is the thought, I don't 
feel a sense of urgency. We do in Delaware. I live in the 
lowest lying State in the country. Our State is sinking; the 
oceans are rising.
    We are not too far away from a place called Ellicott City. 
They have had two 500 year floods in a year. In a year. I live 
in not a very big State, but there are wildfires, bigger than 
the size of my State, in Oregon, Montana, Washington, and 
California, just in the last year. We used to measure rainfall 
by the inch, now we measure it by the foot. And one of the 
things I just don't sense of here is a sense or urgency to do 
something about it. We had 13 agencies that came together and 
said, this is a huge issue, and it is getting worse, not 
better. And they didn't do this because of something that Obama 
law would compel them to do. I think that was legislation 
signed by George Herbert Walker Bush, many, many years ago.
    I am looking for some passion here. I just don't feel it. 
And that is deeply troubling. I am also looking for win-wins. 
We talked about hydrofluorocarbons and the threat that they 
pose to our atmosphere. And it is American technology that has 
a follow on to HFCs, and there is a great interest in being 
able to adopt the Kigali Treaty that actually allows for the 
phase down of HFCs and the introduction of replacements, from 
American made companies with American made technologies. It is 
not some wild eyed, liberal, tree hugging idea. This is the 
U.S. Chamber of Commerce. This is the American Chemical 
Council. It is all these American businesses. And EPA, rather 
than being a good partner and helping to expedite this and make 
it happen, if anything else, I think the agency is an 
impediment.
    And the other thing that I would say, I will never forget, 
my colleagues have heard me say this before, I beg their 
indulgence, I will never forget when Lamar Alexander and I, 
Senator Alexander and I were working on a four-P legislation to 
deal with--you may recall this--to deal with sulfur dioxide, 
nitrogen oxide, carbon, and mercury. The issue that we were 
kind of hung up on was mercury. And the idea, could we actually 
reduce mercury emissions by as much as 80 percent. Lamar 
Alexander said no, no, we can reduce it by 90 percent.
    We had a hearing right here, and a guy sat right at the end 
of the table. Everybody who was from a utility at this table, 
said, oh, we can't even get to 80 percent, much less 90 
percent. The guy who was representing the association that 
said, no, no, they can do better, they can do 90 percent; he 
said, they can do better than that. And you know what? They 
did. They reached 90 percent reduction.
    And if you look at the MATS rule, the reason why the 
utilities are essentially sanguine about this is, they make 
investments, it costs a third as much money to make the 
investments. It is actually working. And not only do we do, I 
think, a beneficial thing for children, infants, for those who 
haven't even been born, we actually do a lot of goodness, not 
collateral damage, but collateral good things. And we do so in 
other areas, particulate matter and all kinds of stuff, to save 
lives. And to somehow say that that just doesn't add up enough, 
and in terms of cost-benefit analysis for us just to say, all 
right, they got it right, they actually got something right, in 
the Obama administration. That's on MATS, and all these other 
folks, all these other stakeholders, are for it, but maybe we 
should be as well.
    What we are afraid of is you are going to do something, 
your agency is going to do something that gives some of us, not 
EPA, but somebody else the ability to come in and have standing 
in court and undo MATS, undo the Mercury Air Toxics Standard. 
That is what we are afraid of. That is what we are afraid of. 
And those are three instances where I think we can have, I 
think a lot of us think we can have cleaner air, cleaner water, 
better public health, more jobs.
    And why we don't take that ball and run it right down the 
field, I don't know. I don't know. That is what frustrates me. 
I am sure it frustrates others on this panel, and frankly, a 
lot of people in this audience and who might be watching.
    I don't normally give long speeches, I normally ask short 
questions and look for short answers. But respond to that, if 
you would. I am looking for passion. I am looking for a sense 
of urgency. I am looking for a real commitment. And that might 
not be your nature, but we need it. I think this agency needs 
that kind of leadership.
    Mr. Wheeler. Senator, you and I have discussed the CAFE 
standard and a number of issues multiple times now. I want you 
to understand and believe that I really do want a 50 State 
solution. I really do.
    When I met with Mary Nichols, that was one on one meetings 
with Mary Nichols, there were three over the last 6 months, 
that doesn't mean we haven't been working with California more 
than that. I know she has met with other people at the agency, 
we have had technical meetings between her technical staff and 
our technical staff. There have been a lot more meetings than 
just those three.
    Those are the three one on one meetings that I had with 
Mary Nichols in my office. We have also been on phone calls, 
and she has met with Department of Transportation. Again, this 
is a joint rulemaking with DOT.
    But at the end of the day, I want a 50 State solution. I 
want a regulation that provides certainty to the consumers, the 
automobile manufacturers, and to all the interested parties. 
And that is what I want at the end of the day, and that is what 
I hope we can get.
    Senator Carper. Yes, methylene chloride. Methylene 
chloride. I want you to impart a sense of urgency on getting a 
rule done on that. It is actually something that Scott Pruitt 
did that we thought was right. And here it is 2 years later, 
and we still haven't followed through. Let's get it done.
    Mr. Wheeler. As I shared with you Tuesday, our hope had 
been to publish that last week. It is at OMB; it is ready to go 
as soon as the Federal Register opens. That is something that I 
have taken seriously, and it is something that we have spent a 
lot of time--I have spent a lot of personal time on that issue. 
And I hope we can get that out as quickly as possible.
    Senator Carper. Methylene chloride, for the record, is a 
paint stripper. It kills people. It must be a really good paint 
stripper, but unfortunately, it kills people.
    Thank you.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I want our witness to recognize that I am not 
at all offended that you found your leadership in the Eagle 
Scouts to be more rewarding than your leadership under me for 
14 years.
    [Laughter.]
    Mr. Wheeler. Thank you, Senator.
    Senator Inhofe. Also, I appreciate the fact that you 
brought up the--and someone else did, Senator Braun, I believe 
it was--brought up the fact that, how much more that our land 
owners, property owners are good stewards of their land. This 
is kind of interesting, because under the previous 
Administration, Dan Ashe was the head of the Fish and Wildlife. 
He came, at my invitation, out to Oklahoma. This is the first 
time that I think in his career he realized this was true. He 
was actually in the western part of the State, and in the 
central part of the State. This is a recognition that I really 
appreciate.
    Since the previous questioner brought up the CAFE 
standards, let me just share with you something you already 
know, but it needs to be in the record. That is that in 1975 
the Congress created a law to help with the fuel shortage 
situation by establishing the corporate average fuels, or CAFE, 
standard. Now, we no longer have a fuel shortage, and yet that 
didn't stop the Obama administration and California from 
ensuring that standards kept increasing beyond what technology 
can do to force their electric car fantasies and the rest of 
this.
    Now, the consumers want trucks and SUVs; they make up about 
two-thirds of the market. And electric vehicles don't even make 
up 1 percent of the Nation's auto sales. But auto manufacturers 
are producing more and more of them. Why do you suppose that 
is?
    Mr. Wheeler. I believe they are producing what the 
consumers want to buy.
    Senator Inhofe. Yes, but what does this do to--I guess the 
question, my follow up question would be, is it your 
understanding that many car manufactures are not technically 
complying with the current Obama standards?
    Mr. Wheeler. Yes.
    Senator Inhofe. Aren't they paying penalties and cashing in 
credits to comply?
    Mr. Wheeler. Yes.
    Senator Inhofe. Now, what does that do to the ultimate 
price to the consumer?
    Mr. Wheeler. It adds additional price to the consumer. 
There is a misconception out there that all the automobile 
manufactures are currently complying with the CAFE standards. 
They are not; some of them are not. There is a penalty basis in 
the regulation, and they are paying penalties for not 
complying.
    It is projected over the life, if the Obama regulations 
were to stay in place, that the amount of penalties will be 
increasing, I believe up to a billion dollars over the life 
span of the Obama regulations. That--those penalties--would be 
passed on to the consumer.
    Senator Inhofe. They will be passed on to the consumer. I 
mean, there's nothing else they can do to accommodate that.
    So I think that is important. Is it really the role of 
Government to dictate what people are buying in America and 
enforcing that? That is something that I have watched, and you 
have seen it over the years. It is something that we have a 
serious problem with.
    Mr. Wheeler, the EPA has been taking a lot of criticism for 
supposed lack of enforcement actions under Trump. Would you 
like to talk a little bit about the enforcement standards that 
have been imposed under your administration so far?
    Mr. Wheeler. Absolutely. First of all, I think it is 
important to note that we did not have a political head of our 
enforcement office for all of 2017. Susan Bodine was not 
confirmed until the end of 2017, which is actually the first 
quarter of 2018. So we have only had a political head for the 
three quarters of 2018, yet our enforcement numbers, important 
enforcement numbers, are up.
    As I mentioned a little while ago, our criminal 
prosecutorial--the number of criminal cases we opened was up in 
2018, compared to 2017. We initiated 140 lead enforcement 
actions in fiscal year 2018, compared to 127 in 2017. And we 
are using all of our tools, including compliance assistance. 
The environmental benefits, as I mentioned in my opening 
statement, we removed 809 million pounds of pollution and waste 
through enforcement actions in 2018, which is almost double 
what we removed in 2017.
    What our enforcement program needed, in the Trump 
administration, was a head of the office, and I am glad that 
the Senate confirmed Susan last year. We still have--the head 
of our emergency response office has not been confirmed yet. I 
hope the Senate will move forward and confirm Peter Wright. I 
think it is important to have a head of the office that is 
responsible for responding to the California fires, the 
hurricanes, and all the other disasters that EPA is responsible 
for the response efforts. And we have not had a head of that 
office now for 2 years.
    Senator Inhofe. I think you make that point very well, and 
let me compliment you on your responses to the questions that 
have been given to you during the course of this hearing.
    Mr. Wheeler. Thank you.
    Senator Inhofe. Thank you, Mr. Wheeler.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Wheeler, you and I had a chance yesterday to talk about 
the WRDA bill, a bipartisan bill to pass this Committee that 
provides new tools in dealing with water issues in this 
country. And we both talked about the fact that you are going 
to be restrained by funding, because some of the issues have 
not been funded at the level I think this Committee would like 
to see funded. I agree with you on that, and we are going to 
work to get you not only the legislative authority but also the 
resources.
    In one case there is funds, and that is new Lead Service 
Line Replacement grant program. Congress did appropriate $10 
million for the program for fiscal year 2018. Will you commit 
to standing up the program and providing this Committee a 
status update on how we are dealing with the lead service line 
replacements?
    Mr. Wheeler. Absolutely. That is an important part of our 
lead strategy and our drinking water strategy, is to try to 
make sure that people have safe drinking water and we get the 
corrosive pipes taken care of, and the lead service lines 
replaced as quickly as possible as well.
    Senator Cardin. I appreciate that, and you will keep us 
informed as to how that is going?
    Mr. Wheeler. Yes, Senator. And the legislation you are 
referring to is the WIA legislation passed as part of WRDA. 
That was passed after our appropriations for fiscal year 2019 
was passed, a bill that Senator Van Hollen mentioned earlier 
today, the appropriations bill.
    So it is my understanding there is no funding in the fiscal 
year 2019, except for the $10 million that you just mentioned 
for that one program, there is no additional funding for the 
other parts of the legislation that was passed. I will note 
that there is a lot of deadlines in the legislation that we are 
going to try to work on.
    Senator Cardin. Let's hope you have a fiscal year 2019 
budget. We talked about that at the beginning of this hearing.
    I think I understand what you are saying in regard to MATS, 
and in regard to the mercury standards. There is a process that 
is going through in your agency, including a comment process. 
But you are very confident that the current enforcement that is 
currently being done that is restricted to mercury emissions, 
that there will be no weakening in regard to the mercury 
emissions into our environment?
    Mr. Wheeler. Under our preferred option, which is, when we 
put out the proposal, we took comments on everything, and you 
often do that in order to make sure that your proposals are 
legal sound in case they are challenged later. But under our 
preferred option, I do not believe there would be a weakening 
in the mercury standards at all, as far as the equipment that 
has already been deployed and implemented across the board.
    I get accused of rolling back the Clean Power Plan. I don't 
think you can roll back a regulation that never took effect. 
And on MATS, I don't think you can roll back a regulation that 
has been fully implemented. And the MATS requirements for the 
pollution control equipment has been fully implemented. And I 
don't believe, I honestly do not believe that that equipment 
will be turned off or removed under our proposal.
    Senator Cardin. And then let me just respond more to my 
good friend Senator Inhofe's comments on energy efficiency in 
our autos, with CAFE standards. There are a lot of reasons to 
be interested in that, in regard to energy efficiency issues, 
particularly in transportation. Part of that is security 
issues; part of that is economic issues.
    But under your jurisdiction, it is the environmental 
impact. There is a cost associated with the unnecessary use of 
fossil fuels as it relates to emissions into our environment.
    So there is a real reason why we like to see more 
efficiency in the way that we transport. Part of that is the 
individual vehicle, part of that is transit policies; part of 
it is the whole way of making people happier but also more 
efficient in the use.
    So I just really want to underscore the point of your very 
first comments, when you were saying the progress that you have 
made in protecting the environment. To me, this is an extremely 
important, urgent issue in transportation efficiency and 
protecting our environment. I hope that as the leader, if you 
are confirmed as the Administrator of EPA, that you will be 
focused on the environment and the impact transportation has on 
the environment, so that we can use technology that has been 
developed here in America to help our economy as well as our 
environment, and also by the way, quality of life, if we can 
get less emissions coming out of our transportation sector.
    Thank you, Mr. Chairman.
    Mr. Wheeler. Absolutely. It is not just the energy 
efficiency or the CO<INF>2</INF> from the automobile industry. 
But we are also, as I mentioned in my opening statement, moving 
forward on removing NO<INF>x</INF> from the heavy duty trucks. 
That is a program that is not required under statute. It is not 
required by court order. But we are moving forward with that, 
because it makes sense, because it will protect the health and 
get more non-attainment areas into attainment around the 
country.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Carper, do you have some 
unanimous consent requests?
    Senator Carper. I do, Mr. Chairman. Let me, if I could, 
just very briefly follow up on something that Senator Cardin 
was raising with Mr. Wheeler. I would ask you to forgive me if 
I don't feel fully comfortable about the notion that the MATS 
rule implemented, not rolled back, doesn't somehow leave us in 
a situation that we have in Delaware and Pennsylvania, for 
nitrogen oxide, for NO<INF>x</INF> pollution.
    In my State, we literally could cut off our economy, all 
our cars off the road, all the businesses shut down, and we 
would still be out of compliance for NO<INF>x</INF>. The reason 
why is because of pollution from Pennsylvania, three utility 
plants, coal fired. And I think one in West Virginia.
    The cruel irony is, each of those plants had installed the 
technology to stop the pollution and to relieve it to us in the 
downwind States. They turned it off. They still have it turned 
off. And when we applied through a Section 126 waiver to try to 
get EPA to do something about it, they declined. So forgive me 
for being concerned and cautious on this front.
    I have a couple of unanimous consent requests to put 
forward, if I may. I would ask unanimous consent to submit for 
the record materials that demonstrate the growing demand for 
electric and hybrid vehicles and the efforts by the oil 
industry to lobby in support of this Administration's fuel 
economy rollback.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you.
    I would also ask unanimous consent, Mr. Chairman, to submit 
for the record a comprehensive science report from Syracuse 
University, Harvard School of Public Health and other 
universities that finds that the benefits of reducing mercury 
to our society is around $4 billion per year, not $4 million to 
$6 million, as EPA claims in its report.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Mr. Chairman, I ask unanimous consent to 
submit for the record two letters I sent to this Administration 
regarding EPA's proposal to undermine the Mercury and Air 
Toxics rule. This includes an August 24th, 2018 letter to Mr. 
Wheeler from Senator Alexander and myself expressing our 
support to keep the MATS rule in place and effective.
    The second is a December 28th letter to OMB's Office of 
Information Regulatory Affairs, affectionately known as OIRA, 
outlining why I have grave concerns about the EPA's flawed 
cost-benefit analysis used in the MATS proposal.
    And finally, one last one.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you.
    Mr. Chairman, I ask unanimous consent to submit for the 
record a variety of materials. They include news articles, 
letters from stakeholders and other materials relating to Mr. 
Wheeler's time as EPA Acting Administrator.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you.
    Senator Barrasso. And members may submit follow up 
questions for the record. By 5 p.m. is the deadline, Friday, 
January 18th. I will need you to respond to the questions by 5 
p.m., Friday the 25th of January.
    I want to thank the nominee for his time, his testimony 
today.
    That concludes the hearing. The hearing is adjourned.
    [Whereupon, at 2:42 p.m., the hearing was concluded.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
